<html>
<title> - CUBA'S PURSUIT OF BIOLOGICAL WEAPONS: FACT OR FICTION?</title>
<body><pre>[Senate Hearing 107-]
[From the U.S. Government Printing Office]


 
         CUBA'S PURSUIT OF BIOLOGICAL WEAPONS: FACT OR FICTION?
=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON WESTERN HEMISPHERE,
                   PEACE CORPS AND NARCOTICS AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                       U. S. GOVERNMENT PRINTING OFFICE
82-407                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                      CORPS AND NARCOTICS AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman
BILL NELSON, Florida                 LINCOLN D. CHAFEE, Rhode Island
JOHN F. KERRY, Massachusetts         JESSE HELMS, North Carolina
RUSSELL D. FEINGOLD, Wisconsin       MICHAEL B. ENZI, Wyoming
JOSEPH R. BIDEN, Jr., Delaware       RICHARD G. LUGAR, Indiana

                                  (ii)

  






                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, submissions for 
  the record:
    Cuba's Biological Weapons Program: A Brief History of 
      Concerns, Questions and Suspicions.........................    17
    Does Havana Have a Biological Weapons Program? Excerpts from 
      ``Biohazard'' by Ken Alibek................................    19
    Does Cuba Have Biochemical Weapons? Article by Maria C. 
      Werlau.....................................................    20

Ford, Hon. Carl W., Jr., Assistant Secretary of State for 
  Intelligence and Research, Department of State, Washington, DC.     5
    Prepared statement...........................................     7

                                 (iii)

  


         CUBA'S PURSUIT OF BIOLOGICAL WEAPONS: FACT OR FICTION?

                              ----------                              


                        WEDNESDAY, JUNE 5, 2002

                           U.S. Senate,    
        Subcommittee on Western Hemisphere,
                Peace Corps, and Narcotics Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd (chairman of the subcommittee), presiding.
    Present: Senators Dodd, Bill Nelson, Chafee, and Allen.
    Also present: Senator Levin.
    Senator Dodd. The committee will come to order. Good 
morning. I want to welcome all of you here this morning to the 
Subcommittee on Western Hemisphere, Peace Corps, and Narcotics 
Affairs. We convene this morning in order to review certain 
public statements made by members of the Bush administration in 
recent months concerning the topic of Cuban biological weapons 
[BW] capabilities and the sale of dual-use technology to so-
called rogue states.
    The issue of biological weapons is obviously a very serious 
matter and we in the U.S. Senate would refrain from the 
temptation to play politics with it. So too should the Bush 
administration in my view.
    John Bolton, the Under Secretary of State for Arms Control 
and International Security, received a great deal of attention 
when he spoke on this topic on May 6 at the Heritage Foundation 
here in Washington. The Heritage Foundation, as I am sure 
everyone in this room knows, is a conservative think tank 
located in this city.
    Secretary of State Powell attempted to downplay the 
significance of Mr. Bolton's statement when he was questioned 
about it during a subsequent television appearance. Secretary 
Powell at that time said, and I quote him: ``As Under Secretary 
Bolton said recently, we do believe that Cuba has a biological 
offensive research capability. We did not say that it actually 
had such weapons, but it has the capacity and the capability to 
conduct such research. That is not a new statement. I think 
that is a statement that has been made previously. So Under 
Secretary Bolton's speech which got attention on this issue 
again was not breaking new ground as far as the United States 
position on this subject goes.''
    The ``previous statement'' to which Secretary Powell was 
referring was made by Carl Ford, our witness here this morning, 
who is the Assistant Secretary of State for Intelligence and 
Research, who will be testifying briefly. It is true that Mr. 
Ford touched upon this subject in March of this year in the 
course of testimony before this committee on the subject of 
biological weapons. Mr. Ford spent a minute or two and 4 lines 
of his testimony on this matter. He said at that time, and I 
quote him: ``The United States believes that Cuba has at least 
a limited developmental offensive biological warfare research 
and developmental effort. Cuba has provided dual-use 
biotechnology to rogue states. We are concerned that such 
technology could support BW programs in those states. We call 
on Cuba to cease all BW-applicable cooperation with rogue 
states and to fully comply with all of its obligations under 
the Biological Weapons Convention.''
    Mr. Ford's remarks received very little attention, either 
during the hearing or subsequently. No tribute at all to your 
eloquence, Carl. It just did not receive that much attention. 
In contrast, Mr. Bolton spent considerably more time on the 
subject in a very different setting. He also suggested in the 
course of those remarks that previous U.S. intelligence 
assessments on the subject of Cuba's potential threat to U.S. 
security were, and I quote him, ``unbalanced and understated 
that threat.''
    It was in that context that he mentioned Cuba's ``limited 
offensive biological warfare research and developmental 
effort.'' Unlike Mr. Ford, Mr. Bolton omitted Mr. Ford's 
characterization of the program as being only in the 
developmental stage.
    So I would respectfully disagree with Secretary Powell when 
he said this was old news. Were Mr. Bolton present at this 
hearing this morning, as I hoped he would be, we would have 
asked him about the content, venue, and timing of his remarks. 
We might have inquired why Mr. Bolton never included Cuba in 
his remarks last November, only 6 months earlier, when he 
testified in Geneva at the Conference on Compliance with the 
1972 Biological Weapons Convention, where he publicly named the 
states of concern on BW issues.
    We would have also inquired whether President Carter's 
impending visit to Cuba about a week after the Heritage 
Foundation speech, the first by any American President or 
former President since Castro assumed power, had anything to do 
with the timing of the speech, or why no one in the State 
Department or elsewhere in the intelligence community sought to 
inform President Carter about this matter in the course of 
intelligence briefings of the former President in preparation 
of his trip to Cuba, if this was a matter of such deep concern 
to the Department.
    Unfortunately, Secretary Powell has refused to allow Mr. 
Bolton to testify on this matter today because he did not 
believe he is the appropriate official to answer questions 
about this matter. That puzzles me as chairman of this 
subcommittee since he was clearly the appropriate official to 
attend the Heritage Foundation event on this subject. I believe 
that the Secretary's decision is the wrong decision. Moreover, 
I do not know how the Secretary can justify making Mr. Bolton 
available to a nongovernmental entity to speak publicly about a 
serious matter such as this, yet deny the U.S. Senate and this 
subcommittee of jurisdiction access to Mr. Bolton to discuss a 
terribly important subject matter.
    I am extremely disappointed with the Department's 
unwillingness to cooperate on this matter and I intend to 
accord matters before the Senate of interest to the Department 
with an equivalent level of cooperation until this matter is 
resolved.
    Having made these preliminary remarks, let me turn now to 
the witness that the Department has made available to the 
committee, Assistant Secretary of State for Intelligence and 
Research Carl Ford. Carl, I thank you for being here this 
morning. And for the record, let me state Carl Ford and I have 
known each other for more than 20 years. We have spent it seems 
like 8 months during 1 month traveling to China together back 
in 1983, I believe it was, almost 20 years ago.
    Let me indicate how I intend to proceed this morning, if I 
could. Mr. Ford has a few opening remarks which we will hear in 
open session. I then have a number of questions which I will 
ask Mr. Ford which are not of a classified nature. I am sure my 
colleague from Virginia who has joined us here and other 
members who show up will have some additional questions of a 
nonclassified nature to address to you. Other members will be 
joining us as they can this morning.
    We will proceed in open session as long as we can without 
getting into classified matters, at which point I will go into 
executive session.
    So Mr. Ford, I would like you to stand, if you would, this 
morning, to raise your right hand so I can administer the oath. 
Do you swear to tell the whole truth and nothing but the truth, 
so help you God?
    Mr. Ford. Yes, sir, I do.
    Senator Dodd. Welcome to the committee. Please be seated, 
and let me turn to my colleague Mr. Allen, to see if he has any 
opening comments he would like to make.
    Senator Allen. Thank you, Mr. Chairman. I would like to 
make some opening remarks. First, insofar as Mr. Ford being 
here, I am glad you are here and I look forward to questioning 
you. I do not know how much of this as far as your intelligence 
capabilities, which I know are extensive, can actually be on 
the open record. So we will try to cover as much as we can that 
is not classified. We did have a briefing yesterday prior to 
this hearing with the chairman.
    As far as Secretary Powell and so forth, as I understand it 
Under Secretary Bolton is willing to appear at a separate 
hearing dealing with policy. Mr. Ford's capabilities are in 
intelligence and indeed I think that was the purpose of this, 
whether Cuba's pursuit of biological weapons, whether that is 
true or false or fact or fiction. And indeed, the statements of 
Mr. Bolton at the Heritage Foundation and the statement of Mr. 
Ford before this committee a few months earlier are, from what 
I can see or determine, identical.
    We have Mr. Ford here so we can question him. I guess we 
could have another hearing with Mr. Bolton as far as what 
policy should be taken. I think the facts are important in 
determining our policy, but let us get the facts straight. I 
think that we are all too aware of how important the threat is 
of chemical or biological weapons in the hands of rogue states 
or terrorist organizations and what that could pose as a threat 
to the United States.
    The anthrax attacks in these buildings right here last fall 
underscored the dangers of such weapons to our country. We do 
not know whether that is external or internal yet, but 
understand the impact it could have. Looking back on those 
events, it shows the need for us to be vigilant in uncovering 
and dismantling any facilities that could produce such weapons 
if mass destruction were the desire, or mass disruption were 
the desire of malicious states or terrorist organizations.
    Now, that is why I stand behind Under Secretary Bolton's 
remarks, which are consistent with Mr. Ford's, which says that 
Cuba ``has at least a limited offensive biological research and 
development effort,'' and furthermore ``that Cuba has provided 
dual-use biotechnology to rogue states.'' So it is certainly a 
fact, not fiction, that Cuba has a capability to pursue 
biological weapons.
    Now, Under Secretary Bolton is not the first government 
official to have spoken publicly on this issue. On March 19, 
2002, in testimony before this very Foreign Relations Committee 
at a hearing addressing the threat of chemical and biological 
weapons, our witness here, Assistant Secretary Ford, stated the 
United States believed that Cuba has at least a limited 
developmental offensive biological warfare research and 
development effort.
    In fact, it was Assistant Secretary Ford's words that Under 
Secretary Bolton precisely echoed verbatim 2 months later at 
the Heritage Foundation, and these statements are clearly 
supported by intelligence reporting that I have personally 
reviewed.
    Now, throughout the past decade we have seen numerous 
reports addressing Cuba's bioweapons capability. It is a well 
known fact that Cuba has one of the most advanced biotechnology 
and pharmaceutical industries in the world, ranking near the 
top of the World Health Organization's list of countries with 
the most developed biological industries, lagging only behind 
the G-7.
    The well-respected former Deputy Director of Biopreparat, 
Ken Alibek, the Soviet Union's biological weapons program, has 
acknowledged that his institute trained Cubans in developing 
biological weapons and agents. In his 1998 book ``Biohazard,'' 
Alibek recounts how his boss Major General Yuri Kalinin, head 
of the Soviet bioweapons program, made several trips to Cuba to 
consult on various biotechnology programs.
    That in itself does not prove it, but you see there is a 
cause for concern, and that is of public record. Moreover, in 
the October issue of ``Nature Biotechnology Journal'' Jose de 
la Fuente, the former Director of Research and Development at 
Cuba's premier Center for Genetic Engineering and 
Biotechnology, reported that Cuba sold technology to Iran that 
could--could--be used to produce biological weapons.
    Now, Fidel Castro has himself very recently proclaimed, for 
example, that Iran and Cuba, in cooperation with each other, 
could bring America to its knees in asserting that we had weak 
leadership in this country.
    I am deeply troubled by the fact that several rogue states 
have received technical assistance from Cuba, potentially--
again potentially--acquiring the technology and expertise to 
build biological weapons. Cuba must adhere to its commitment 
under the Biological Weapons Convention. Moreover, it must halt 
the transfer of sensitive dual-use items and materials that 
might be flowing to many countries and potentially into the 
hands of terrorist groups that of course we consider as a 
direct threat to our allies or to our own national security.
    And we must not attempt to whitewash Fidel Castro's record 
and the resulting impoverishment of opportunities for those who 
cannot leave Cuba. Whether it is human rights abuses on a 
national scale, whether it is violating international accords 
such as the Biological Weapons Convention, or developing 
weapons that could be used against the United States, national 
security and American values must prevail over partisan 
politics.
    Mr. Carter, former President Carter, in his recent trip to 
Cuba, made several statements relating to the legitimacy of 
Cuba's biotechnology industry, dismissing verified concerns 
about Cuba's biotechnology efforts, capabilities, and 
transfers. The fact of the matter remains, Cuba possesses, and 
I quote, ``at least a limited biological weapons research and 
development effort,'' and I believe that at a minimum we ought 
to work to prevent it from being proliferated either to rogue 
states or to terrorist groups.
    I look forward to this hearing and thank you, Mr. Chairman, 
for calling it.
    Senator Dodd. Thank you.
    Senator Chafee, any opening comments you would like to 
make?
    Senator Chafee. Thank you, Mr. Chairman, for calling the 
hearing. I was fortunate enough to go to Havana in January and 
did get a tour of one of the pharmaceutical plants. So I do not 
think there is any doubt, as Senator Allen said, that Cuba is a 
leader in this area and probably has the capacity to produce 
these types of weapons.
    I do think that since the dawn of time, when cavemen 
sharpened sticks, it has been human nature to pursue weapons. 
Whether that is good or bad, I just think it is true. The more 
important point is whether there is an intent and where the 
animosity might be directed if Cuba is following this path. I 
think really that is the more important point.
    Certainly they have the capacity from what I saw. At that 
pharmaceutical plant, they were developing meningitis vaccines 
that we use in Rhode Island. We had an outbreak of meningitis 
and used the Cuban vaccine.
    So I look forward to your testimony.
    Mr. Ford. Thank you.
    Senator Dodd. Thank you very much.
    Mr. Ford, thank you for being here.

  STATEMENT OF HON. CARL W. FORD, JR., ASSISTANT SECRETARY OF 
   STATE FOR INTELLIGENCE AND RESEARCH, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Ford. Mr. Chairman, first let me simply state that my 
presence here alone is not to suggest to you or the committee 
that the Department is not prepared to answer any policy 
implications that might come from my presentation. The 
Secretary is planning to be here this afternoon, as I think you 
know. He will take any questions that you may have directly 
about his views on the subject or the Heritage speech or what 
Mr. Bolton said.
    If that does not answer all the committee's questions, then 
he is prepared to have Mr. Bolton come up at a time of your 
convenience to answer any other questions that you may have. Or 
other officials from the Department.
    Senator Dodd. I appreciate that, Carl. I certainly am going 
to talk to the Secretary about it this afternoon. It is an 
awful long way to get around to it. Someone obviously gave him 
permission to testify before the Heritage Foundation. I am just 
very disappointed that a coequal branch of government, when the 
statements are made in a public forum as they were, provoking 
as much discussion as it did, that asking that official to 
appear before this committee to explain how it was that he 
managed to make those remarks, whether or not they were based 
on the kind of intelligence we have gathered, I find it 
disappointing that I have got to go through the Secretary of 
State, go through you, be turned down as not the right 
official, and then maybe down the road he can come and testify.
    If he can show up at the Heritage Foundation, he can show 
up at the U.S. Senate.
    Mr. Ford. Well, the only thing I can say is that it was 
certainly not the Department's intention to deny you or the 
committee access to our policy officials. What the Secretary 
feels strongly about, and I agree with, is that there should be 
a clear separation in our Department from intelligence and 
policymakers. I do not tell them what to say and they better 
not tell me what I say. That is the way we operate. That's the 
way we think it is best done. So that by having us both appear, 
the Secretary believes it puts the policy and intelligence too 
close together.
    But on his part there is no intention not to come to you 
directly or send Secretary Bolton or anyone else that you might 
like to talk about this subject.
    But when it is intelligence, you get me. When you want to 
talk policy, you get him or one of the other policy officials. 
That is simply the way that we have decided that we should 
operate when it comes to intelligence and policy.
    But I have a brief statement if I might present. It is my 
pleasure to come before the subcommittee today to discuss the 
issue of what we in the Bureau of Intelligence and Research 
[INR] assess to be Cuba's efforts to date in the area of 
biological warfare. My remarks in this open forum will 
necessarily be limited owing to the need to protect sensitive 
intelligence information. But I would welcome the opportunity 
and am prepared to give classified remarks in a closed session.
    On March 19, as you indicated, in my statement in front of 
the full committee, I stated INR's judgment that the United 
States believes that Cuba has at least a limited developmental 
offensive biological warfare research and development effort. 
Cuba has provided dual-use technology to rogue states. We are 
concerned that such technology could support BW programs in 
those states.
    That assessment and our concerns have not changed in the 
intervening 2\1/2\ months. Among the various weapons of mass 
destruction [WMD], biological warfare is perhaps the most 
difficult to clearly identify, absent unambiguous, reliable 
intelligence information, owing to the dual-use nature of the 
technology and materials used to support a BW program. In 
today's world many nations, including Cuba, have in place 
robust biotechnology infrastructures, as some of the world's 
best scientific talent has turned to this avenue of modern 
science to promote medical and agricultural advances in their 
countries.
    Distinguishing legitimate biotech work from work that is 
pursued to support either offensive or defensive BW efforts or 
programs continues to be a difficult intelligence challenge. In 
a nutshell, since basic BW production does not require large, 
sophisticated programs or facilities, it makes the intelligence 
assessment function more complicated.
    Cuba has several facilities involved in biologically 
related efforts in agriculture, medicine, and veterinary 
science which, as in any country, could be used for illicit 
purposes. This dual-use problem presents all who are committed 
to combating the BW threat with the dilemma of how best to 
assess the capabilities of any given facility against the 
intent to develop biological weapons.
    What then can I say about the evidence for our assessment? 
The nature of biological weapons makes it difficult to procure 
clear, incontrovertible proof that a country is engaged in 
illicit biological weapons research, production, weaponization, 
and stockpiling. Cuba's sophisticated denial and deception 
practices make our task even more difficult.
    That said, we have a sound basis for our judgment that Cuba 
has at least a limited developmental offensive biological 
warfare research and development effort. I am prepared to 
discuss the evidence we do have in a closed session or leave 
behind a classified statement for the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ford follows:]

 Prepared Statement of Hon. Carl W. Ford, Jr., Assistant Secretary of 
                  State for Intelligence and Research

    Thank you Mr. Chairman.
    It is my pleasure to come before the Subcommittee today to discuss 
the issue of what we in the Bureau of Intelligence and Research assess 
to be Cuba's efforts to date in the area of biological warfare. My 
remarks in this open forum will necessarily be limited owing to the 
need to protect sensitive intelligence information, but I would welcome 
the opportunity and am prepared to give classified remarks in a closed 
session.
    On March 19, in my statement in front of the Senate Foreign 
Relations Committee, I stated INR's judgment that:

          The United States believes that Cuba has at least a limited, 
        developmental, offensive biological warfare research and 
        development effort. Cuba has provided dual-use biotechnology to 
        rogue states. We are concerned that such technology could 
        support BW programs in those states.

    That assessment and our concerns have not changed in the 
intervening 2\1/2\ months.
    Among the various weapons of mass destruction (WMD) disciplines, 
biological warfare (BW) is perhaps the most difficult to clearly 
identify, absent unambiguous reliable intelligence information, owing 
to the dual-use nature of the technology and materials used to support 
a BW program. In today's world, many nations, including Cuba, have in 
place robust biotechnology infrastructures, as some of the world's best 
scientific talent has turned to this avenue of modern science to 
promote medical and agricultural advances in their countries. 
Distinguishing legitimate biotech work from work that is pursued to 
support either offensive or defensive BW efforts or programs continues 
to be a difficult intelligence challenge. In a nutshell, since basic BW 
production does not require large, sophisticated programs or facilities 
it makes the intelligence assessment function more complicated.
    Cuba has several facilities involved in biological-related efforts 
in agriculture, medicine and veterinary science, which, as in any 
country, could be used for illicit purposes. This dual-use problem 
presents all who are committed to combating the BW threat with the 
dilemma of how best to assess the capabilities of any given facility 
against the intent to develop biological weapons.
    What then can I say about the evidence for our assessment? The 
nature of biological weapons makes it difficult to procure clear, 
incontrovertible proof that a country is engaged in illicit biological 
weapons research, production, weaponization and stockpiling. Cuba's 
sophisticated denial and deception practices make our task even more 
difficult. That said we have a sound basis for our judgment that Cuba 
has at least a limited, developmental, offensive biological warfare 
research and development effort. I am prepared to discuss the evidence 
we do have in a closed session or leave behind a classified statement 
for the record.
    Thank you, Mr Chairman.

    Senator Dodd. Thank you. Let me just say regarding this, my 
concern and I think the concern of many of us is obviously, as 
a result of September 11 and events even before that, a high 
degree of interest in terrorism and the fact that we have now 
been victimized very directly by it here. How we allocate our 
resources, how we allocate our attention, is going to be 
critically important.
    In fact, if Cuba poses a direct threat to the United States 
and our allies, then we need to respond to that. If they do not 
in that assessment--and that is why the intelligence assessment 
is so critically important, that if we are off chasing an issue 
here that is not substantiated by facts, then we are 
misallocating resources, time and attention where it could be 
spent in other places.
    So the issue becomes very, very important and therefore the 
background of how this assessment is made is going to be also 
very worthwhile.
    I am going to put a clock on each one of us here for 10 
minutes in the first go-around and we will see how that works 
in terms of questions. Let me begin by a series of questions if 
I can, Mr. Ford, for you. One, has the Bureau of Intelligence 
and Research which you head recently changed its assessment 
with respect to Cuba's potential biological weapons capability 
and programs?
    Mr. Ford. No.
    Senator Dodd. It's been the same assessment?
    Mr. Ford. The last time that the intelligence community did 
a National Intelligence Estimate was in 1999 and we have 
refined and we know a little bit more than we did then, so that 
there has been some modification, improvement of our analysis, 
but no major radical or even minor change. It's basically the 
same judgment we made in 1999.
    Senator Dodd. So the assessment by Mr. Bolton that it's 
unbalanced, an unbalanced assessment, in his speech that he 
gave before the Heritage Foundation?
    Mr. Ford. The history of the words on BW in that speech 
were, as I understand it, Secretary Bolton invited the 
intelligence community [IC] to provide him with some words that 
he could use in a speech on BW. He was very careful, I think, 
not to suggest words to the community for clearance. He asked 
them: What do you think, what do you say?
    So that they came up with the lines in the speech and 
presented those to INR to take back to Secretary Bolton for his 
use. As I understand it, his speech was postponed. I wasn't 
aware of this. I had a requirement on short notice to come up 
and brief the committee on chemical weapons [CW] and biological 
weapons worldwide. Apparently those words that had been 
approved for Mr. Bolton were picked by my staff to insert in my 
presentation to the full committee, and so that I then 
presented that information that had been cleared by the IC.
    When it came time for Mr. Bolton to give his speech a month 
or two later, he then took the same language that had been 
approved earlier by the community and stuck it into his 
Heritage speech. But those words were our words, the 
intelligence community's words, not his. But the speech was 
his, not ours.
    Senator Dodd. Well, he characterized the 1998 report as 
unbalanced and underplaying the threat posed by Cuba. You tell 
me there was no change at all in the assessments, my first 
question to you. And his response in his speech was calling it 
unbalanced and underplaying the situation, the previous 
assessment. This is the same assessment.
    Mr. Ford. Right. This is not to divert the question, but I 
think that what Secretary Bolton intended or meant in his 
speech would be best asked of Secretary Bolton. And as I said--
--
    Senator Dodd. I'm just asking you on the assessment as an 
intelligence assessment.
    Mr. Ford. Our assessment from 1999 to 2002 has changed 
little. The only thing that we would say differently is that I 
don't think that we would have to footnote to emphasize that it 
was an effort, not a program, which INR did in 1999. I think 
the rest of the community now feels as strongly as we do that 
the evidence will support that there is a BW, limited BW 
offensive development program--an effort, but not a program. So 
that the community's view has been refined. We would no longer 
have to make a footnote to emphasize that all of us agree that 
it's not a program. They would say that themselves.
    Senator Dodd. I'm told by staff, your staff, that each word 
is selected very carefully and debated rather extensively.
    Mr. Ford. True.
    Senator Dodd. Because each word is terribly important.
    Mr. Ford. That's correct.
    Senator Dodd. You used the word ``developmental'' in your 
testimony. Mr. Bolton specifically left the word out, as well 
as other language. Now, is there some--do you consider that 
word important?
    Mr. Ford. The word of course is important, but my 
understanding was that the words were identical. But I 
personally have not looked at the Heritage speech. I have just 
simply taken it on face value that the words that we had 
presented to Secretary Bolton were the ones used, and I've been 
told that's the case.
    And if that's the case, I used exactly the same words 
because they were the words originally approved for Secretary 
Bolton to give in the speech. I just happened to give them 
first.
    Senator Dodd. Was the entire interagency intelligence 
community given an opportunity to review and clear your March 
19 testimony?
    Mr. Ford. The way we normally submit for intelligence 
community clearance, we send--for example, today we sent my 
testimony to the NIC, National Intelligence Council, and it's 
their responsibility then to ship it around to various members 
of the community and to come back with a community-approved 
clearance.
    But I was very careful in my testimony to say today I'm 
speaking for INR, and for Carl Ford. For CIA, for DIA, those 
are independent agencies, and on this important subject you 
should ask them directly. Now, my sense is that they not only 
cleared what I said, but they also agree with what I said. But 
that's something you should test for yourself by asking the 
various other members of the intelligence community their 
views.
    Senator Dodd. Well, was it at your initiative that the Cuba 
material be included in your March 19 testimony or did that 
come from some other bureau?
    Mr. Ford. The requirement was to do a worldwide chemical-
biological warfare presentation at the unclassified level to 
the full committee, that the chairman and others were 
interested in an initiative on that subject this year on the 
committee. So that we put together a worldwide brief. Cuba is 
one of the topics that is in--if you ask us for a worldwide 
brief on chemical-biological weapons, Cuba would routinely and 
naturally appear.
    Senator Dodd. Well, there was a speech given on November 
19, 2001, at the Geneva meeting on specifically the subject of 
biological weapons, and at that speech Mr. Bolton specifically 
left Cuba out. Do you understand why, when he listed almost 
every other country that posed somewhat of a threat in this 
area, and yet Cuba was not mentioned at all in those comments, 
at an audience gathered specifically for that subject matter?
    How do you explain 6 months, at an important meeting where 
one might assume that if the threat is as described that it 
would be mentioned, whereas in a speech before a think tank 
here in Washington we find an opposite disclosure?
    Mr. Ford. Well, again, I'm not trying to evade your 
question. It's obviously a logical and an important question. 
But best to ask Mr. Bolton. He was the one that gave both 
speeches and both presentations and he will know and can give 
you right from the horse's mouth what his intentions were and 
what his thoughts were at the time.
    Senator Dodd. Did you or your staff at the INR have the 
opportunity to review and clear Mr. Bolton's May 6 speech 
before delivery?
    Mr. Ford. I did not personally look at the speech. Let me 
check and see.
    [Pause.]
    Mr. Ford. My staff tells me that we only looked at the 
intel portions of the speech.
    Senator Dodd. Did your staff or you have any disagreements 
with the draft versions of the speech submitted for clearance 
by Mr. Bolton?
    Mr. Ford. The portions that were shown us were ones that we 
had cleared through the intelligence community process earlier, 
so that to the best of my knowledge we didn't--since we didn't 
see the speech in its entirety, we only saw those portions that 
had to do with CW or BW----
    Senator Dodd. But you were given the draft speech, your 
staff was?
    Mr. Ford. Not to my knowledge.
    Senator Dodd. They're saying yes behind you.
    [Pause.]
    Mr. Ford. Oh, OK. Clarification. I misunderstood. We 
received the whole speech, but we only commented on those 
portions that were from intelligence.
    Senator Dodd. Did you have any disagreements with the draft 
speech?
    Mr. Ford. On the intelligence side we did not. We approved 
it. It was the language that we had provided. Again, it's--the 
intelligence--we don't make it a secret within our building 
what INR's views are. So that all of the members, Secretary 
Bolton, Secretary Powell and others, all know what INR's 
position on intelligence is.
    But it's not our responsibility or our job to tell the 
policymakers what the implications of that intelligence are or 
what they should do about particular problems around the world.
    Senator Dodd. But if you're going to get into intelligence 
matters and make a public speech and you have things in there 
that the interagency task force would disagree with, I presume 
that point would be made?
    Mr. Ford. That point would be made.
    Senator Dodd. Was the entire interagency intelligence 
community given the opportunity to review and clear the full 
content of Mr. Bolton's May 6 Heritage Foundation speech?
    Mr. Ford. I don't know.
    Senator Dodd. You want to check with your people? Do you 
want to ask?
    Mr. Ford. I'm sorry?
    Senator Dodd. Do you want to ask your people?
    Mr. Ford. I don't think they would know, either. I'll take 
the question.
    Senator Dodd. Well, who would be responsible for ensuring 
that interagency clearance is requested and received?
    Mr. Ford. The normal process is that if you have a speech 
that you want cleared with the intelligence community you bring 
that to INR. INR sends it to the National Intelligence Council. 
The National Intelligence Council then clears it through the 
rest of the community. When we get it back, it has the stamp of 
approval from the intelligence community.
    In this particular case, the speech itself was not of a 
matter of intelligence community responsibility and so that the 
only things that were cleared or focused on were those parts 
that contained sources and methods and/or that purported to be 
the intelligence community's view.
    Senator Dodd. Let me ask you one additional question. My 
time is up, just to wrap up this line of questioning. It was 
not until March, obviously, until your testimony here on March 
19, that the administration publicly commented on this specific 
issue. What factors influenced the decision to address this 
issue publicly? Did any administration officials in the State 
Department other than those in the Bureau of INR or in any 
other governmental agencies discuss with you the inclusion of 
the Cuba matter in your March 19 public testimony?
    Mr. Ford. No, sir, they did not.
    Senator Dodd. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman.
    Is there any evidence in the past number of years or 
decades of the Cuban military using biological weapons in any 
of their adventures around the world, whether it is Angola or 
anywhere else?
    Mr. Ford. Senator Chafee, I would prefer when we start 
talking about what I know beyond my unclassified statement, I 
would prefer to take that question in closed session, if you 
don't mind.
    Senator Chafee. Very good. Can you answer how quickly and 
easily a biomedical project could be converted into a 
bioweapons project?
    Mr. Ford. Senator, it's one of the great difficulties for 
intelligence analysts, is that most of the procedures for 
building an offensive biological warfare capability are--if you 
have the capability to do the civilian research on vaccines and 
various pathogens, that it is a simple matter to turn that into 
at least a limited offensive capability.
    We have difficulty even trying to determine where all this 
work would be done. It doesn't require a large building. It 
doesn't require a lot of special facilities. If you have the 
facilities to do medical biotechnological research, you have 
the facilities to build a biological weapon, unfortunately.
    Senator Chafee. I think one of the reasons for having this 
hearing is there is a perception that the speech to the 
Heritage Foundation was counter to the administration's policy, 
it went too far. And certainly there seems to be a lot of spin 
control going on. Even right after the speech, the Secretary of 
Defense is putting a different look on it. Major General Speer, 
Commander of the Southern Command, is putting another look on 
the words that Secretary Bolton used. And here we are even 
splitting hairs between whether it is an effort or a program. 
Is that accurate? It's an effort; not a program? I don't know 
the difference. They seem the same to me.
    I guess the main point is that the State Department has the 
responsibility to have a unified position and to make sure that 
everybody is not saying things to one group that they are not 
saying to another. Do you agree with my assessment of the 
situation here this morning?
    Mr. Ford. I would take some exception to the 
characterization of not much difference between a program and 
an effort. There really is a difference. We've never tried to 
suggest that we have the evidence, the smoking gun, to prove 
proof positive that they had a program. A program suggests to 
us something far more substantial than what we see in the 
evidence.
    But we feel very confident about saying that they're 
working, working on an effort that would give them a BW, a 
limited BW offensive capability. That's serious enough for us 
to tell you about it. If we didn't think it was important, if 
we didn't think that that was a dangerous thing to occur, we 
would have looked at the evidence and said, well, this is all 
bogus and there's nothing here worth reporting.
    I wouldn't have given it in my March 16 speech, I wouldn't 
be back here today telling you they had a limited offensive BW 
capability, if I didn't think that was a pretty important thing 
for you to know.
    Senator Chafee. I guess my followup question would be then, 
why would the Secretary of Defense, of all people, not be 
concerned that there is an effort 90 miles away from our 
borders? He said ``I haven't seen the intelligence'' the day 
after Secretary Bolton's speech.
    Mr. Ford. Again, as an alumni of the Foreign Relations 
Committee staff, one of the things I did learn--not a lot of 
things; I learned some things--is don't answer questions like 
that. The fact is that I'll let the Secretary of State and the 
Secretary of Defense and all those people speak for themselves 
and I'm not going to characterize or explain what the chairman 
meant by a certain comment.
    I understand your question. I understand the concerns. But 
all I can give you is my best assessment. My only instruction 
from the Secretary is tell the truth, and that's what I'm 
doing. So that I can give you our best judgment on what we 
think is happening in Cuba on BW. I have a sense of where the 
community is on this issue and there's really no difference 
between us.
    But if you want to test that, I would--rather than take my 
word for it, I would suggest that you have CIA and DIA and 
others come up and tell you directly in their testimony.
    Senator Chafee. Thank you very much.
    Senator Dodd. Thank you, Senator.
    We've been joined by Carl Levin of the Armed Services 
Committee. Carl, we will get to you in a minute, but I want to 
stick, if I can, with our committee members.
    Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Just to get a few facts straight here. The young woman had 
a chart that was up that shows your statement, Mr. Ford, on 
March 19, 2002, before the Senate Foreign Relations Committee 
and then this supposedly controversial statement by Under 
Secretary of State John Bolton at the Heritage Foundation on 
May 6, 2002.
    If you could, is that--on the top is your testimony. Is 
that an accurate transcription of your testimony?
    Mr. Ford. Yes, sir, it appears to be.
    Senator Allen. OK and under that is the May 6 statement at 
the Heritage Foundation by Mr. Bolton. I'm not going to ask you 
if that's how it's been reported.
    Mr. Ford. But it was my understanding that this was 
correct. This is what I had been told, that both of our 
statements were identical.
    Senator Allen. You both used the term--you both used the 
phrase that ``Cuba has at least a limited developmental 
offensive biological warfare research and development effort,'' 
right?
    Senator Dodd. That's incorrect. I've got the text of the 
speech here. The direct line is: ``The United States believes 
Cuba has a limited offensive biological warfare research and 
development effort.'' The ``developmental'' you got was not in 
the speech.
    Senator Allen. All right, that's yours. So the evidence I 
have--I guess we ought to get a transcript if there's a court 
reporter at the Heritage Foundation.
    All right. Well, it seems to be substantially the same. 
Now, let me ask you this. Did you both state that ``Cuba has 
provided dual-use biotechnology to rogue states''?
    Mr. Ford. Yes.
    Senator Allen. And did you both state that ``We are 
concerned that such technology could support BW or biological 
weapons programs in those states''?
    Mr. Ford. I said that, yes.
    Senator Allen. All right. Now, this is where I think the 
main concern, at least my main concern, is that according to 
the National Intelligence Council Iran maintains a significant 
chemical and biological weapons program and continues to 
develop and expand its CBW or chemical and biological weapons 
programs. Now, Iran is on the State Department's designated 
state sponsors of terrorism list; is that correct?
    Mr. Ford. That's correct.
    Senator Allen. And does the U.S. Government believe that 
Cuba's assistance to Iran is simply helping Teheran's public 
health program? Or do we know, if you can state in open 
hearing?
    Mr. Ford. We don't know, but I would like to expand my 
answer in closed session if I might, Senator.
    Senator Allen. Fair enough.
    Should we--or can we assume that the transfer of 
sophisticated biotechnology which has a dual use from Cuba to 
rogue states is for a benign purpose? Can we make any 
assumption or can you answer that?
    Mr. Ford. I certainly wouldn't make that assumption myself 
and I wouldn't see it only as a one-way street, that the 
sharing of chemical, biological, and even nuclear weapons 
technology is a concern of mine and I think the intelligence 
community. So that while I'm concerned about what Cuba and its 
biotechnological capability may be providing other countries 
like Iran, I'm also concerned about their associations with 
countries that also have a chemical and biological warfare 
capability and there can be an exchange of ideas, exchange of 
capabilities, again as part of the process of showing an 
interest and watching very carefully what they're up to in Iran 
and Iraq, Syria, Libya, wherever else they might be talking to 
people.
    Senator Allen. Without getting into the names of countries, 
which we had in a top secret briefing yesterday afternoon, we 
do have different levels of concern or levels and understanding 
of the levels of capabilities of different countries in the 
world in their capacity, whether they're programs or efforts, 
to produce biological or chemical weapons; isn't that correct?
    Mr. Ford. That's correct.
    Senator Allen. And while Cuba may not be as high in their 
capabilities as other countries, there is clear evidence that 
they are transferring at least dual-use biotechnology that 
could be used, could potentially be used, in biological or 
chemical weapons to countries that do have a greater capacity 
than even Cuba does?
    Mr. Ford. That is correct.
    Senator Allen. That's kind of following yours, but I'm 
trying to be more specific.
    Mr. Ford. That's correct, Senator. Just so that you 
understand, what I have said is that, although we make a 
distinction between a program and an effort, it's not to 
suggest that an effort can't hurt you. A program in our minds 
is, really the standard that we're using to compare is the 
Soviet Union during the cold war, the Russians and what sort of 
program they had, which include test facilities, weapons 
development, weapons production, the weaponization process in 
its sort of entirety.
    If you look at what we see going on in Cuba, we don't see 
that sort of thing. But the fact is that with BW you don't have 
to put it in a 130-millimeter howitzer shell and deliver it or 
deliver it by a rocket for it to be dangerous. Unfortunately, 
it's the sort of thing that can be carried by individuals and 
brought here in an unconventional way.
    So an effort, no matter how small or how suspicious, how 
much evidence we have, is still something for us in the 
intelligence community to worry about and report to you as 
something you ought to know about.
    Senator Allen. Now, as you know, Cuba is a signatory--thank 
you for that comment and insight. Cuba is a signatory to the 
Biological Weapons Convention, and if you stand behind your 
statement of March 19, which you say you have, that Cuba has at 
least a limited developmental offensive biological warfare 
research and development effort, then wouldn't Cuba be in 
violation of the BWC?
    Mr. Ford. Very good question, Senator. It was one of the 
reasons that, when I had a choice, I chose to be an 
intelligence officer rather than a policy official in this 
administration. I simply report to the policy people what I 
think is happening in Cuba or Iran or North Korea or wherever, 
and it's up to the people who are in the verification and 
monitoring and arms control business to determine whether or 
not it's a violation of an arms control agreement, 
international or multilateral, bilateral, whatever it might be.
    While I have a superficial and general knowledge of these 
arms control agreements, I would be entirely the wrong person 
to make that judgment without further study. It's not normally 
my job, so I don't really look at it that closely. I won't have 
any more to say in closed session, either.
    Senator Dodd. Carl, you took a strong policy position on 
March 19. That wasn't just intelligence. To the Senator's 
question, you called on Cuba to cease all biological 
cooperation with rogue states and fully comply. Now, that 
implies you've got full awareness of what the treaty is. That's 
not intelligence; that's a policy statement.
    Mr. Ford. It also suggests that I'm not perfect. If you've 
noticed that in my testimony today, that I looked at much more 
carefully than I did the Cuba part, the Cuba part on my 16th of 
March statement, which had to be done very quickly, I have been 
very careful to state what INR's position is on the 
intelligence and I've dropped off that last sentence.
    I did say it on the 16th, you're right. If I had to say it 
again today, I wouldn't, because it is a policy issue and I 
simply was--what happened without my really knowing it--I 
should have known; I should have focused on it--was those words 
were approved for Secretary Bolton in his speech and I simply 
stole them from him in haste to put them in a broader speech, 
and I should have caught it, didn't, and I uttered those policy 
statements as you correctly point out.
    Senator Allen. All right. Thank you, Mr. Chairman, 
reclaiming whatever few moments I had.
    You were not chastised by anyone for that last sentence, 
were you?
    Mr. Ford. No.
    Senator Allen. All right.
    Mr. Ford. I chastised myself.
    Senator Allen. OK, self-flagellation.
    Mr. Ford. Because it was my rule that I broke, not yours.
    Senator Allen. Fine. In all of this, I want to say to the 
chairman, I think your statement's accurate and I don't think 
you have any worry about it. I know people thrive on process 
around here and that's important, I suppose. The substance is 
what I care about and the truthfulness of the assertions is 
what's most important.
    On Senator Dodd, you are correct and you stand corrected. 
The word ``developmental'' was not in Bolton's speech. But as 
far as all of the statements about concern for technology, 
supporting BW programs in other states and transferring it to 
the dual-use, it's all correct. But I just want to state for 
the record that word ``developmental'' in the first sentence 
wasn't there, but all the rest of the concerns are the same. I 
want to clarify that. I'm sorry for having the incorrect 
assertion.
    Senator Dodd. No, not at all.
    Senator Allen. Let me ask you this, if you could answer, 
Secretary Ford. There are many states who have--many countries 
that have biotechnology and pharmaceutical industries that are 
sophisticated. Why would states such as Iran go to Cuba for 
biotechnology equipment and not purchase more advanced 
technologies from those available elsewhere? Despite the 
economic incentives to do so, isn't it true that European 
countries control the sales of dual-use biotechnologies to 
rogue states such as Iran because they recognize the nefarious 
intentions or potential intentions of such countries as Iran?
    Mr. Ford. It's my understanding that countries in Europe 
and the United States, we all very carefully try to monitor the 
most egregious dual-use capable sorts of biomedical equipment 
and do put limits on it. To suggest that we're perfect at that 
or that it's effective, unless there is a total boycott, 
sanctions against a country, I'm sure that there are certainly 
ways for Iran to buy it in other parts of the world.
    But it does suggest that, from a country like Cuba, they 
would have fewer restrictions, I would think, and it would be 
easier for countries like Iran to get some of the things that 
they want and may turn to Cuba to do that. Cuba has clearly 
decided that it's a very important money-maker for them and so 
they are prepared to sell this equipment to anybody who wants 
to buy it, including Iran, Syria, Libya, Iraq, and other states 
that we have concerns about.
    Senator Allen. Well, that is my concern, Mr. Chairman and 
members of the committee, that even if Cuba were innocently 
thinking that they were just making money because they are a 
generally impoverished country and they're making money, what 
are those others going to do with it?
    I would like to simply close by, if I could, ask that the 
following attached documents be entered into the record. One is 
a brief history of concerns and questions and suspicions about 
Cuba's biological weapons program. Second is excerpts from 
``Biohazard: The Chilling True Story of the Largest Covert 
Biological Weapons Program in the World,'' by Ken Alibek, who I 
referenced earlier; and then an article by Maria Werlau, ``Does 
Cuba Have Biochemical Weapons?''
    Senator Dodd. Without objection, so ordered.
    Senator Allen. Thank you, Mr. Chairman.
    [The material referred to follows:]

    Cuba's Biological Weapons Program: A Brief History of Concerns, 
                        Questions and Suspicions

    In a transmittal letter accompanying the Defense Department's May 
1998 report, The Cuban Threat to U.S. National Security, Secretary of 
Defense William S. Cohen wrote to the chairman of the Senate Armed 
Services Committee: ``I remain concerned about Cuba's potential to 
develop and produce biological agents, given its biotechnology 
infrastructure.
    In its public Executive Summary, the report stated, ``Cuba's 
current scientific facilities and expertise could support an offensive 
BW [bioweapons] program in at least the research and development stage. 
Cuba's biotechnology industry is one of the most advanced in emerging 
countries and would be capable of producing BW agents.''
    In the October 2001 issue of the journal Nature Biotechnology, Jose 
de la Fuente, the former director of research and development at Cuba's 
premier Center for Genetic Engineering and Biotechnology, wrote he was 
``profoundly disturbed'' that Cuba was selling to Iran technology that 
could be used to produce biochemical weapons. He wrote, ``No one 
believes that Iran is interested in these technologies for the purpose 
of protecting all the children in the Middle East from hepatitis, or 
treating their people with cheap streptokinase when they suffer sudden 
cardiac arrest . . ..'' During a May 2001 visit to Tehran, Castro 
proclaimed, ``Iran and Cuba, in cooperation with each other, can bring 
America to its knees.''
    In October 2001, the Chairman of the Senate Intelligence Committee, 
Bob Graham (D-FL) told the Miami Herald that Cuba ``clearly has the 
capability of producing chemical and biological ingredients that could 
become weapons of mass destruction.'' He added that it was impossible 
to know what Cuba was up to because international inspection agencies 
have not been given access to facilities. He said, ``Nobody, at least 
nobody that I'm aware of in the United States, feels that we know what 
Cuba's doing.''
    An October 2001 study by the University of Georgia's Center for 
International Trade and Security found that safeguards to prevent 
terrorists and rogue nations from acquiring the equipment and material 
necessary to make biological and chemical weapons are dangerously 
inadequate. Cuba, one of 19 countries examined, rated a C- in limiting 
exports of such equipment and material. (Atlanta Journal and 
Constitution, October 26, 2001.)
    An October 10, 2001, report on MSNBC.com said, ``With help from the 
Soviet Union's massive secret biological weapons program, Castro was 
able to build one of the world's most sophisticated biotechnology 
industries which can also be used to build weapons of mass 
destruction.'' Former Soviet scientist Ken Alibeck (see below) says he 
helped to train Cubans in this technology, which he now regrets. ``This 
work would be used for developing biological weapons or biological 
agents. As a result of this, we helped Castro develop biological 
weapons. It was such a stupid decision.''
    Also reported: Gen. Charles Wilhelm, a former Southcom Commander 
said: ``The indications we have is that they have the capability to 
produce those type of substances.'' The Canadian Security Intelligence 
Service, which investigates terrorist threats, said in a 1996 report, 
``Cuba has been a supply source [to terrorist groups] for toxin and 
chemical weapons.''
    At an October 11, 2001, hearing of the House Intelligence Terrorism 
and Homeland Security Subcommittee, Rep. Chris Shays (R-CT), noted that 
the Pentagon lists 15 countries believed to have biological weapons--
among them, Cuba. (Associated Press, October 11, 2001)
    In his 1999 book Biohazard: The Chilling True Story of the Largest 
Covert Biological Weapons Program in the World--Told from the Inside by 
the Man Who Ran It (Random House), former KGB Colonel Ken Alibek, 
second in command of the Soviet offensive biological warfare program 
until his defection in 1992, wrote that his former boss, Maj. Gen. Yuri 
Kalinin, visited several Cuban biotechnology facilities in 1990 and 
told him he was convinced the Castro regime was deeply involved in a 
biological warfare research effort. Alibek, who is widely respected in 
the U.S. biological warfare community, told the Miami Herald (June 23, 
1999), ``Kalinin saw no weapons production, but with his experience in 
offensive biological warfare work, it was his opinion that they were 
doing offensive work also. They are using the same cover stories we had 
developed, about factories to produce single-cell bacteria as animal 
feed. Maybe we were over-suspicious, but we did not believe their 
stories
. . . .
In my personal opinion, I have no question Cuba is involved.''
    In an October 2, 2001, commentary in the Los Angeles Times, author 
Jeremy Rifkin (The Biotech Century, Tarcher Putnam, 1998) notes, 
``Iraq, long known as a threat for biological warfare, is not alone in 
its interest in developing biological weapons. In a 1995 study, the CIA 
reported that 16 other countries were suspected of researching and 
stockpiling germ warfare agents-ban, Libya, Syria, North Korea, Taiwan, 
Israel, Egypt, Vietnam, Laos, Cuba, Bulgaria, India, South Korea, South 
Africa, China and Russia.''
    In his 2001 book Scourge: The Once and Future Threat of Smallpox 
(Atlantic Monthly Press), Jonathan Tucker, a leading expert on 
biological and chemical weapons writes, ``leaks and rumors of uncertain 
reliability suggested that several countries might have inadvertently 
or deliberately retained specimens of the virus from the time when 
smallpox was a common disease. Possible suspects included China, Cuba, 
India, Israel, Pakistan, and Yugoslavia.''
    In their 2000 book Living Terrors: What America Needs to Know to 
Survive the Coming Bioterrorist Catastrophe (Delta Publishing), experts 
Michael Osterholm and John Schwartz cited a 1999 report by the 
congressionally created Commission to Assess the Organization of the 
Federal Govemment to Combat Proliferation of Weapons of Mass 
Destruction that said ``most of the nations identified as sponsors of 
terrorism either have or are seeking weapons of mass destruction. 
(Those nations are Cuba, Iran, Iraq, Libya, North Korea, Sudan and 
Syria).''
    In the July 12, 1999, issue of the New Yorker, Richard Preston, an 
expert on biological and chemical weapons, reported that the U.S. 
govemment ``keeps a list of nations and groups that it suspects either 
have clandestine stocks of smallpox or seem to be trying to buy or 
steal the virus.'' The classified list is ``said to include'' Cuba 
along with nine other countries.
    A March 31, 1998, article in the Washington Post said, ``Cuba has 
one of the most sophisticated biotech and pharmaceutical industries in 
the hemisphere. Because lethal biological materials can be produced by 
countries with biotech industries, it is difficult to determine when a 
country moves from simply having the capability to produce deadly 
viruses, to the intent or plans to do so.'' It said, ``while [Clinton] 
administration officials do not allege that Cuba has such weapons, `You 
can't say there's no capability,' said one defense official.''
    According to Insight Magazine (July 20, 1998), ``A classified annex 
to the Pentagon final report to Congress [in 1998] further warns: 
`According to sources within Cuba, at least one research site is run 
and funded by the Cuban military to work on the development of 
offensive and defensive biological weapons.' ''
    A December 1993 Office of Technology Assessment report 
``Technologies Underlying Weapons of Mass Destruction'' identified Cuba 
as one of 17 countries possessing a bioweapons capability.
    In 1988, syndicated columnists Rowland Evans and Robert Novak 
revealed that Soviet-supplied Cuban troops fighting in Angola had used 
chemical weapons against the U.S.-backed forces of Jonas Savimbi's 
UNITA. They cited evidence ``scrupulously documented'' by the senior 
United Nations consultant on chemical warfare, Dr. Aubin Heyndrickx of 
Belguim. Toxicologists certified that residue from chemical weapons--
including sarin--was found in areas of recent action. When questioned 
by then-Sen. Dennis DeConcini about the then-rumours, Heyndrickx 
replied, ``There is no doubt anymore that the Cubans were using nerve 
gases against the troops of Mr. Jonas Savimbi.'' Also, the columnists 
noted that Heyndrickx had warned the United States that if Soviet-Cuban 
managers in Angola used gas in the past, they could use it in the 
future.
    More evidence of Cuba's use of chemical agents in Africa surfaced 
in a July 28, 1998, Reuters report that Wouter Basson, former head of 
South Africa's covert chemical weapons program, had given a sworn 
statement implicating Cuba. He said that South Africa had been forced 
to begin its chemical weapons' program after Cuba had used chemical 
warfare on South African troops fighting in Angola. At the time they 
had been unprepared and defenseless. (South African troops fought in 
Angola until 1990.)
                                 ______
                                 

            Does Havana Have a Biological Weapons Programs?

Excerpts from biohazard: The Chilling True Story of the Largest Covert 
Biological Weapons Program in the World by Ken Alibek \1\ (Random 
House, 2000). Pages 273-277
---------------------------------------------------------------------------
    \1\ Mr. Alibek is a former deputy director of Biopreparat, the 
Soviet Union's biological weapons program.

    When Yuri Ovchinnikov died in 1987, I joined a group of Biopreparat 
scientists at his funeral services in Moscow. The conversation 
eventually turned to Cuba's surprising achievements in genetic 
engineering. Someone mentioned that Cuban scientists had successfully 
altered strains of bacteria at a pharmaceutical facility just outside 
---------------------------------------------------------------------------
of Havana.

          ``Where did such a poor country get all of that knowledge and 
        equipment?'' I asked.

          ``From us, of course,'' he answered with a smile.

    As I listened in astonishment, he told me that Castro had been 
taken during a visit to the Soviet Union in February 1981 to a 
laboratory where E. coli bacteria had been genetically altered to 
produce interferon, then thought a key to curing cancer and other 
diseases. Castro spoke so enthusiastically to Brezhnev about what he 
had seen that the Soviet leader magnanimously offered his help. A 
strain of E. coli containing the plasmid used to produce interferon was 
sent to Havana, along with equipment and working procedures. Within a 
few years, Cuba had one of the most sophisticated genetic engineering 
labs in the world--capable of the kind of advanced weapons research we 
were doing in our own.
    General Lebedinsky visited Cuba the following year, at Castro's 
invitation, with a team of military scientists. He was set up in a ten 
room beach-front cottage near Havana and boasted of being received like 
a king. An epidemic of dengue fever had broken out a few months 
earlier, infecting 350,000 people. Castro was convinced that this was 
the result of an American biological attack. He asked Lebedinsky and 
his scientists to study the strain of the dengue virus in special labs 
set up near the cottage compound. All evidence pointed to a natural 
outbreak--the strain was Cuban, not American--but Castro was less 
interested in scientific process than in political expediency.
    . . . Cuba has accused the United States twelve times since 1962 of 
staging biological attacks on Cuban soil with anti-livestock and anti-
crop agents . . .
    Kalinin was invited to Cuba in 1990 to discuss the creation of a 
new biotechnology plant ostensibly devoted to single-cell protein. He 
returned convinced that Cuba had an active biological weapons program.
    The situation in Cuba illustrates the slippery interrelation 
between Soviet support of scientific programs among our allies and 
their ability to develop biological weapons.
    . . . For many years, the Soviet Union organized courses in genetic 
engineering and molecular biology for scientists from Eastern Europe, 
Cuba, Libya, India, Iran and Iraq among others. Some forty foreign 
scientists were trained annually. Many of them now head biotechnology 
programs in their own countries. Some have recruited the services of 
their former classmates.
    In July 1995, Russia opened negotiations with Iraq for the sale of 
large industrial fermentation vessels and related equipment. The model 
was one we had used to develop and manufacture bacterial biological 
weapons. Like Cuba, the Iraqis maintained the vessels were intended to 
grow single-cell protein for cattle feed . . .
    A report submitted by the U.S. Office of Technological Assessment 
to hearings at the Senate Permanent Subcommittee on Investigations in 
late 1995 identified seventeen counties believed to possess biological 
weapons ``Libya, North Korea, South Korea, Iraq, Taiwan, Syria, Israel, 
Iran, China, Egypt, Vietnam, Laos, Cuba, Bulgaria, India, South Africa 
and Russia.''
                                 ______
                                 

                  Does Cuba Have Biochemical Weapons?*

                          (By Maria C. Werlau)

    * This article was published as Chapter 6, pp. 99-128, of Cuba: 
 Assessing the Threat to U.S. Security (Miami: The Endowment for Cuban 
            American Studies, 2001), edited by Adolfo Leyva.

          Today this country has more options than ever, is stronger 
        than ever, and has more weapons than ever to wage the 
        ideological battle--and let's not forget the other weapons we 
        have stored away and the very clear idea on how we'd use them, 
        so we are calm.

                         Fidel Castro, October 17, 2001.\1\
---------------------------------------------------------------------------
    \1\ Castro compared the United States to a dragon and warned 
against the dragon eating the lamb, Cuba. (``Fidel inaugura nueva 
escuela de formacidn de trabajadores sociales.'' Granma Internacional 
Digital. 18 de Octubre de 2001. http://www.granma.cu/espanol/octu3/
43escuela-e.html. Translation by the author.)

          This lamb can never be devoured--not with planes nor smart 
        bombs--because this lamb is smarter than you, and in its blood 
        there is, and always will be, poison for you.
                         Fidel Castro, January 28, 1998.\2\
---------------------------------------------------------------------------
    \2\ Armando Correa, `` `Veneno' de Castro abre sospechas que Cuba 
oculta armas bacteriologicas.'' El Nuevo Herald, May 4, 1997, Sec. A. 
p.6. (Translation by the author.)
---------------------------------------------------------------------------
                  what does the u.s. government know?
    In May of 1998, then Secretary of Defense William Cohen submitted a 
report to Congress titled ``The Cuban Threat to U.S. National 
Security.'' Prepared by the Defense Intelligence Agency as a result of 
an inter-agency effort, the Executive Summary of its section 
``Biological Warfare Threat'' read: `Cuba's current scientific 
facilities and expertise could support an offensive BW program in at 
least the research and development stage. Cuba's biotechnology industry 
is one of the most advanced in emerging countries and would be capable 
of producing BW agents.'' \3\
---------------------------------------------------------------------------
    \3\ The Cuban Threat to U.S. National Security, Report Submitted to 
Congress by Secretary of Defense, William Cohen, 1998. The Transmittal 
Letter of May 6, 1998 from the Secretary of Defense to The Honorable 
Strom Thurmond, Chairman, Senate Armed Services Committee, states that 
the review and assessment was conducted by the Defense Intelligence 
Agency (DIA) in coordination with the National Intelligence Council; 
the Central Intelligence Agency, the National Security Agency and the 
Intelligence and Research Bureau at the State Department. The Joint 
Staff, the United States Southern Command, the National Security 
Council, and the Bureau of Inter-American Affairs at the Department of 
State were also consulted. http://www.defenselink.mil/pubs/cuparpt.htm
---------------------------------------------------------------------------
    At a congressional hearing held recently. Rep. Chris Shays, R-
Connecticut. Chairman of the House Government Reform's Subcommittee on 
National Security, Veterans' Affairs and International Relations, 
asserted that the Defense Department openly lists the countries 
believed to have biological weapons, mentioning Cuba alongside fourteen 
others.\4\ \5\
---------------------------------------------------------------------------
    \4\ Hearing of the House Intelligence Terrorism and Homeland 
Security Subcommittee, October 11, 2001. At the hearing, Col. Edward 
Eitzen, who heads the Army's lead biological defense lab at Fort 
Detrick, Maryland (Medical Research Institute of Infectious Diseases) 
refused to say which countries are thought to have experimented with 
bioterrorism weapons.
    \5\ Remaining countries listed are: Bulgaria, China, Egypt, Iran, 
Iraq, Israel, Laos, Libya, North Korea, Russia, South Africa, Syria, 
Taiwan, and Vietnam. (Carolyn Skorneck, ``Anthrax Dangerous, Difficult 
Weapon,'' Washington, Associated Press, October 11, 2001.)
---------------------------------------------------------------------------
    In 1995, the congressional Office of Technology Assessments \6\ had 
submitted a report to Congress identifying seventeen countries believed 
to be in possession of biological weapons--the list included Cuba,\7\ 
in fact, might well be among the countries alluded to in a Defense 
Department 2000 report to Congress: ``Intelligence analysts believe 
that at least seven potential adversaries have an offensive BW 
capability to deliver anthrax.'' \8\
---------------------------------------------------------------------------
    \6\ The Office of Technology Assessments was established by 
Congress in 1972 to provide congressional committees analysis of 
emerging, difficult and often highly technical issues.
    \7\ Others on the list were Libya, North Korea, South Korea, Iraq, 
Taiwan, Syria, Israel, China, Egypt, Vietnam, Laos, Bulgaria, India, 
South Africa, and Russia. (Congressional Hearing of the Senate 
Permanent Subcommittee on Investigations.)
    \8\ DOD response to the staff report of the House Government 
Reforms' Subcommittee on National Security, Veterans' Affairs and 
International Relations entitled `The Department of Defense Anthrax 
Vaccine Immunization Program: Unproven Force Protection,'' February 29, 
2000.
---------------------------------------------------------------------------
    In 2000, Michael Osterholm and John Schwartz--recognized experts on 
biochemical weapons,\9\ cited a 1999 report by the congressionally 
created Commission to Assess the Organization of the Federal Government 
to Combat Proliferation of Weapons of Mass Destruction: ``most of the 
nations identified as sponsors of terrorism either have or are seeking 
weapons of mass destruction. (Those nations are Cuba, Iran, Iraq, 
Libya, North Korea, Sudan and Syria). According to the commission . . . 
more than a dozen states have offensive and/or chemical weapons 
programs.'' \10\
---------------------------------------------------------------------------
    \9\ Mr. Osterholm is the Director of the Center for Infectious 
Disease Research and Policy as well as Professor of Public Health at 
the University of Minnesota. Mr. Schwartz is a journalist for The New 
York Times.
    \10\ Michael T. Osterholm and John Schwartz, Living Terrors (New 
York: Delta Publishing, 2000), p. 37.
---------------------------------------------------------------------------
    In addition to intelligence reports, albeit imprecise, leading 
experts and journalists, relying on diverse sources, have included Cuba 
in the short list of countries suspected or said to have biological 
weapons. In 1998, for example, Richard Preston, a journalist who's 
written extensively on biological and chemical weapons, reported that 
the U.S. government ``keeps a list of nations and groups that it 
suspects either have clandestine stocks of smallpox or seem to be 
trying to buy or steal the virus.'' The classified list is ``said to 
include'' Cuba along with nine other countries.'' \11\
---------------------------------------------------------------------------
    \11\ Also listed are Russia, China, India, Pakistan, Israel, North 
Korea, Iraq, Iran, Cuba, and Serbia. (Richard Preston, ``The demon in 
the freezer,'' The New Yorker, July 12, 1999, pp. 44-61.)
---------------------------------------------------------------------------
    In his authoritative book on smallpox, Scourge, published in 2001, 
Jonathan Tucker \12\ sustains: ``. . . leaks and rumors of uncertain 
reliability suggested that several countries might have inadvertedly or 
deliberately retained specimens of the virus from the time when 
smallpox was a common disease. Possible suspects included China, Cuba, 
India, Israel, Pakistan, and Yugoslavia.'' \13\ Tucker also cites a 
1994 Defense Intelligence Agency report on the work of an Interagency 
Working Group that determined the former Soviet Union had transferred 
smallpox virus to Iraq in the 1980's or 1990's. Although he does not 
explore the Castro regimes' close ties with Saddam Husseins' Iraq, 
these purportedly include cooperation in biochemical weapons' 
development.'' \14\
---------------------------------------------------------------------------
    \12\ Jonathan Tucker, a leading expert on biological and chemical 
armament, is currently Director of the Chemical and Biological Weapons 
Nonproliferation Project of the Center for Nonproliferation Studies of 
the Monterey Institute of International Affairs in Washington, D.C. and 
has worked for the U.S. State Department, the congressional Office of 
Technology Assessments and the Arms Control and Disarmament Agency.
    \13\ Jonathan B. Tucker, Scourge: The once and future threat of 
smallpox (New York: Atlantic Monthly Press, 2001), p. 205.
    \14\ For more on the Iraq-Cuba relation, see Briefing Paper by 
Manuel Cereijo, Cuba-Iraq, October 2001. (Cereijo, former professor at 
Florida International University, claims he has interviewed many 
scientists and defectors from Cuba over a period of years. He reports 
that by the early 1990s Iraq had given Cuba anthrax virus for its 
development. See his papers at http://www.amirospais-guaracabuya.org/
index cereijo.html). Also see Marcelo Fernandez-Zayas, Intelligence 
Report of October 25, 2001. (Fernandez-Zayas has written has 
interviewed numerous defectors and has contacts with diplomats and 
government sources worldwide. His articles are available at http://
www.amigospais-guaracabuya.org/index.mfz.html.)
---------------------------------------------------------------------------
    The most compelling indication of a Cuban bioweapons program, 
however, comes from a high-ranking Soviet defector. In 1998, Ken 
Alibek,\15\ former Deputy Director of Research and Production of the 
former Soviet Unions' biological weapons program, gave a first-hand 
account of the Cuban operation. In his book Biohazard,\16\ Alibek 
recounts how his boss--Major General Yury Kalinin, head of the Soviet 
bioweapons program--had returned from a 1990 visit to Cuba ``convinced 
that Cuba had an active biological weapons program.'' Kalinin had been 
invited by Cuba to discuss the creation of a new biotechnology plant, 
ostensibly devoted to single-cell protein. Alibek also recalls how, in 
July 1995, Russia had opened negotiations with Iraq for the sale of 
large industrial fermentation vessels and related equipment--the very 
model ``we had used to develop and manufacture bacterial biological 
weapons. Like Cuba, the Iraqis maintained the vessels were intended to 
grow single-cell protein for cattle feed . . .'' \17\
---------------------------------------------------------------------------
    \15\ Formerly Dr. Kanatjan Alibekov, from 1987 to 1992 he was first 
deputy chief of research and production of Biopreparat, known as ``The 
System,'' the Soviet Union's clandestine biological weapons program. 
Its top scientist, he had thirty-two thousand scientists and staff 
people working under him. After an inspection trip to the U.S. in 
December 1991, Alibek became convinced it had no active biowarfare 
program. Confirming his already growing doubts, he realized the Soviet 
leadership had used propaganda lies to justify its huge offensive 
biological program. He resigned and left the Russian Federation for the 
U.S. several months later, in October 1992. (Ken Alibek, ``Behind the 
Mask: Biological Warfare,'' Perspective, Volume IX, No. 1, September-
October 1998 (Perspective is a publication of Boston University's 
Institute for the Study of Conflict, Ideology and Policy); Richard 
Preston, ``The bioweaponeers,'' The New Yorker, March 9, 1998, pp. 52-
65; J. Tucker, Scourge, pp. 138-162.)
    \16\ Ken Alibek with Stephen Hendelman, Biohazard (Random House, 
1998).
    \17\ Ibid, p. 275.
---------------------------------------------------------------------------
    In a June 1999 interview, Alibek explained that the Cubans had, 
since 1988, been after them (the Soviets) for help in building the 
microbiology plant with a huge reactor. His boss, Kalinin, was aware 
that Cuba's investment in biotechnology was beyond the means of the 
country's economy and suspected the plant was actually intended for 
developing biological weapons in industrial volumes. In a previous trip 
to Havana, Kalinin had reported encountering severe security measures 
and secret, closed off, areas--just as in the Soviet offensive 
biological program. And, in his 1990 visit to Cuba, Kalinin saw the 
sophisticated equipment Cubans had purchased, a requirement for the 
development of military biological material. Alibek claimed that their 
suspicions of a Cuban biowarfare program had began in 1987; by 1991 
they were seeing ``irrefutable signs of biowarfare production.'' \18\
---------------------------------------------------------------------------
    \18\ Roberto Fabricio, ``Las instalaciones cubanas de biotecnologia 
`estan llenas de zonas cerradas y secretas,' '' El Nuevo Herald, June 
20, 1999.
---------------------------------------------------------------------------
    According to Alibek, the Soviet Union had helped Cuba develop its 
biotechnology program after a February 1981 trip by Castro to the 
Soviet Union, then under Brezhnev. He writes: ``Within a few years, 
Cuba had one of the most sophisticated genetic engineering labs in the 
world--capable of the kind of advanced weapons research we were doing 
in our own.'' \19\ In Biohazard he revealed how, for many years, the 
Soviets had organized courses in genetic engineering and molecular 
biology for scientists from Eastern Europe, Cuba, Libya, India, Iran 
and Iraq among others. Some forty foreign scientists were trained 
annually.\20\ He later elaborated that Cuba had sent dozens of students 
to Moscow's State University for studies in macrobiology and 
biotechnology.\21\ Most recently, he's regretted having helped train 
Cubans in this technology, which helped ``Castro develop biological 
weapons.'' \22\
---------------------------------------------------------------------------
    \19\ Ken Alibek, The Chilling True Story of the Largest Covert 
Biological Weapons Program in the World (Random House, 2000), pp. 273-
277.
    \20\ ``Many of them now head biotechnology programs in their own 
countries. Some have recruited the services of their former 
classmates.'' (Ibid.)
    \21\ R. Fabricio, op.cit.
    \22\ Ike Seamans Report: Cuba's Biological Weapons Industry, NBC 6. 
October 10, 2001. http://www.msnbc.com/local/wtvi/nbc6e201fsc.asp
---------------------------------------------------------------------------
    Already in 1988, the United Nations Security Council has been 
informed of use of toxic weapons by Soviet-supported Cuba in 
Angola.\23\ Belgian toxicologists \24\ had certified that residue of 
chemical weapons--including sarin and VX gas--had been found in plants, 
water and soil where Cuban troops were alleged to have used chemicals 
against Savimbi's troops. Additional tests had provide evidence that 
other substances--such as napalm and sarin--were used against civilian 
populations supporting Savimbi; \25\ \26\ Allegations had been made 
previously that Cuba had used chemical weapons in Angola in 1984 and 
1986.\27\
---------------------------------------------------------------------------
    \23\ The use of chemical and bacteriological agents in war is 
forbidden by the 1925 Geneva Protocol (Protocol for the Prohibition of 
the use in war of asphyxiating, poisonous or other gases, and 
bacteriological methods of warfare) which entered into force on 
February 8. 1928.
    \24\ The team was led by Dr. Aubin Heyndrickx, chief United Nations 
consultant on chemical warfare, a world-renowned Belgian toxicologist 
and professor at the State University of Ghent, Belgium. (Rowland Evans 
and Robert Novak, ``Cuban troops in Angola said to use poison gas,'' 
Syndicated Column Mid-January 1988, FortFreedom.com, February 6, 1989, 
http://www.fortfreedom.org/y19.htm; Ariel Remos, ``Las armas 
bacteriologicas colocan a Castro en el Biocerrorismo,'' Diario Las 
Americas, July 13, 1999.)
    \25\ A. Remos, op.cit.
    \26\ The now defunct Voix d'Afrique is said to have published (2/6/
90) photos of people allegedly deformed by chemical weapons used by 
Cuba against men, women and children in Angola in the 1980's. (Jonathan 
T. Stride, ``Who will check out Fidel Castro's new chemical/biological 
weapons plant in East Havana.'' Miami. www.fiu.edu/-fcf/
bio.chem.plnat91097.html)
    \27\ Rafael Fermoselle, ``El terrorismo y la conexion cubana,'' El 
Nuevo Herald, October 8, 2001. (Mr. Fermoselle is retired from the U.S. 
Foreign Service and the author of several books.)
---------------------------------------------------------------------------
    In the United States, an Evans & Novak column of mid-1988 had 
criticized the Reagan Administration for turning away from evidence 
that Soviet-sponsored Cuban troops were using poison gas against the 
U.S.-backed freedom fighters. It argued that the very serious charges 
were being ignored to avoid compromising ``the cozy new relationship'' 
with Gorbachev and, perhaps, to also keep from stirring the pot after 
the recent agreement between South Africa and Angola.\28\ Evans & Novak 
asserted that the charges had been ``scrupulously documented'' by Dr. 
Aubin Heyndrickx, the senior United Nations consultant on chemical 
warfare, and cited his recent response to an inquiry from Democratic 
Senator DeConcini about the rumors: ``There is no doubt anymore that 
the Cubans were using nerve gases against the troops of Mr. Jonas 
Savimbi.'' Heyndrikcx was also reported to have warned the United 
States that ``if Soviet-Cuban managers in Angola used gas in the past, 
they could use it in the future.'' \29\
---------------------------------------------------------------------------
    \28\ Ibid. (The pact called for a staged Cuban withdrawal of its 
troops and an end to South African aid for Savimbi.)
    \29\ Evans & Novak, op.cit. (Heyndrickx told an African publication 
that in Angola chemical gases supplied by the Russians had been used by 
dos Santos against the Unita movement of Jonas Savimbi at least between 
1986 and 1991. Idrissa Fofana, ``Menaces pour la paix,'' Dentain. 
L'UNITA, Afrique Golfe Magazine, Janvier-Fevrier 1998. http://
www.afard-unita.asso.fr/html/revuepress/revue15.htm).
---------------------------------------------------------------------------
    Evidence of an offensive chemical program re-surfaced in 1998.\30\ 
In July it was reported that Wouter Basson, former head of South 
Africa's covert chemical weapons program,\31\ had given a sworn 
statement with serious allegations against Cuba. He declared that South 
Africa had been forced to begin its chemical weapons' program after 
Cuba had used chemical warfare on South African troops fighting in 
Angola. At the time they had been caught unprepared and defenseless. 
(South African troops fought in Angola until 1990.) \32\ In fact, the 
highest ranking military officer to ever defect from Cuba, Air Force 
Brigadier General Rafael del Pino, has reported that since the 1970's 
war in Angola, the Cuban Armed Forces, he explained, had been bent on 
developing and possessing chemical weapons. Cuba's top brass had 
approached the Soviets to request these weapons, but the Soviets had 
refused.\33\
---------------------------------------------------------------------------
    \30\ Actually, documents allegedly smuggled out of Cuba in 1997 
indicated that Castro initiated a chemical-weapons program in 1981, 
when Soviet technicians built a plant to produce tricothecen, the main 
component of ``yellow rain,'' in an underground tunnel complex at 
Quimonor in Matanzas province. The program was expanded some years 
later with the construction of another chemical-weapons facility in 
Pinar del Rio, where Cuban and Soviet technicians began experimenting 
with mixtures of germs and toxins to produce anthrax. (See M. Arostegui 
and J. Stride, op.cit.).
    \31\ Basso, a doctor and toxicologist, headed South Africa's 7th 
Medical Division. ``SA's poison gas secrets sold to Libya,'' Electronic 
Mail & Guardian, February 7, 1997, http://www.mg.co.za/mg/news/97feb1/
7feb-poisongas.html
    \32\``Cuba uso arias quimicas en contra de Sudafrica,'' Reuters 
(Capetown)/El Nuevo Herald, July 28, 1998. (Soviet-sponsored Cuban 
troops fought against Jonas Savimbi's anti-Communist guerrillas. When 
negotiations began in 1988 for a staged withdrawal, an estimated 55,000 
Cuban troops were deployed in Angola.)
    \33\ A. Correa, El Nuevo Herald, 5/4/97, ibid. (Brigadier General 
del Pino defected in 1987. He also reported that the Cubans had 
attempted an experiment in a helicopter, using a chemical weapon, but 
it had failed.)
---------------------------------------------------------------------------
    Despite all of the above, it is unknown what exactly U.S. 
intelligence has uncovered regarding Cuba's biochemical programs. 
Meanwhile, U.S. government officials outside the intelligence 
community, while confirming that Cuba's highly advanced biotechnology 
industry is capable of producing biological warfare agents, have 
publicly discredited allegations that Cuba is manufacturing biological 
weapons. In 1997, for example, the U.S. State Department responded to a 
report of secret documents smuggled out of the island with details of 
Cuba's bioweapons program: ``The U.S. government follows the matter of 
weapons of mass destruction very closely, and we can assure you that we 
know of no reason to be alarmed.'' \34\
---------------------------------------------------------------------------
    \34\ Juan O. Tamayo, ``U.S. downplays rumors of Cuban germ 
missiles,'' The Miami Herald, February 4, 1997. (News of the existence 
of the documents was released by a former high-ranking Air Force 
General, Alvaro Prendes, exiled in 1994.)
---------------------------------------------------------------------------
    In 1999 there was another official response. The Miami Herald 
published a story on U.S. government reactions to Alibek's account in 
Biohazard, which had received prominent coverage in Spanish-language 
media in Miami, home of a large Cuban American community. State 
Department sources were quoted: ``Cuba certainly has the know-how and 
capability to brew terrorism-sized batches of deadly agents,'' but 
``there has been no proof that it has methodically produced military-
grade agents or munitions.'' Moreover it elaborated, there was ``no 
evidence that Cuba is stockpiling or has mass-produced any BW 
[biological warfare] agents,'' plus there was not ``any sign of 
production facilities.'' Another U.S. official was cited: ``We don't 
see any special facilities with eight-foot fences and stuff like that . 
. .'' And, yet another government representative reported that 
intelligence from defectors and other means hadn't produced any 
verifiable evidence of bio-chemical weapons production.\35\ U.S. 
officials, however, also acknowledged that the possibility could not be 
ruled out of Cuba manufacturing small quantities of biological warfare 
agents and containers for terrorist and sabotage actions.
---------------------------------------------------------------------------
    \35\ Juan O. Tamayo, ``U.S. skeptical of report on Cuban biological 
weapons,'' The Miami Herald, June 23, 1999.
---------------------------------------------------------------------------
    After revisiting the denials issued in 1999, the Coordinator for 
Cuban Affairs at the State Department has recently reaffirmed: ``We are 
not aware of anything different'' that would be at odds with those 
statements.\36\
---------------------------------------------------------------------------
    \36\ James Carragher, recently appointed Coordinator for Cuban 
Affairs, U.S. Department of State, in telephone conversation, October 
23, 2001. (The author read Mr. Carragher quotes from the Herald article 
of 1998 attributed to U.S. government officials.)
---------------------------------------------------------------------------
    Public contradictions point to a seeming discrepancy between U.S. 
policy and defense officials on the matter of Cuba's offensive 
biochemical capability. El Nuevo Herald--the Spanish version of The 
Miami Herald--reported in June of 1999: ``Official Pentagon sources 
declare they are aware that Cuba has bacteriological weapons,'' but 
``we cannot discuss what we know because there's a political decision 
to not rock the boat, yet we are concerned.'' \37\ Further, it cites a 
former high-ranking government official with access to classified 
reports claiming that already in 1988 the CIA had produced a long 
document that concluded that Cuba had biological weapons and described 
the island's biotechnology facilities.\38\
---------------------------------------------------------------------------
    \37\ Roberto Fabricio, ``Agencias del gobierno pugnan sobre armas 
bacteriologicas,'' El Nuevo Herald, June 23, 1999.
    \38\ Ibid.
---------------------------------------------------------------------------
    The strong indication of an offensive biochemical weapons program 
in Cuba has, until now, received surprisingly scant media attention 
despite the island's highly developed biotechnology industry, its 
geographic proximity and the open hostility of the Castro regime 
towards the United States.\39\ Tragically, since recent events have 
made the threat of biological and chemical terrorist attacks a reality, 
there seems to be a gradual--albeit faint--turn of attention to Cuba as 
a potential source of biological weapons. An October 15, 2001 Reuters 
report read: ``According to the U.S. Department of Defense and the Arms 
Control and Disarmament Agency, China, Cuba, Egypt, Iran, Iraq, Israel, 
Libya, North Korea, Russia, Syria and Taiwan all have developed 
potential biological weapons, including with anthrax. Such governments 
could sponsor an attack, or sell an anthrax weapon to the right 
bidder.'' \40\
---------------------------------------------------------------------------
    \39\ 0ne notable exception of media coverage was a 1998 story in 
The Washington Times of documents smuggled out of Cuba on the island's 
biological weapons facilities. (Martin Arostegui, ``Fidel Castro's 
Deadly Secret--Five BioChem Warfare Labs,'' Insight Magazine/The 
Washington Times, Vol. 14, No. 26 July 20, 1998.) Aside from this, the 
little coverage has been, up to now, almost exclusively limited to the 
El Nuevo Herald, the Spanish daily counterpart of The Miami Herald, 
which is published in South Florida, home to a large Cuban American and 
Cuban exile community. (Refer to bibliography for some examples.)
    \40\ Maggie Fox, ``Anthrax available from many sources,'' Reuters 
(Washington), October 15, 2001.
---------------------------------------------------------------------------
    In mid-October 2001, The Miami Herald featured a story on a visit 
by Senator Bob Graham, D-Florida to its Editorial Board, focused on his 
comments that Cuba ``clearly has the capability of producing chemical 
and biological ingredients that could become weapons of mass 
destruction. (. . .) ``Nobody, at least nobody that I'm aware of in the 
United States, feels that we know what Cuba's doing.'' Graham, however, 
reported it was not known if Cuban scientists are actually facilitating 
such efforts, partly because international inspection agencies have not 
been given access to facilities.\41\ Two days later, the Herald 
followed up with an editorial favoring keeping Cuba on the State 
Department's list of state sponsors of terrorism and citing, among 
other reasons, the lack of access to inspect for bio-chemical 
weapons.\42\
---------------------------------------------------------------------------
    \41\ Nancy San Martin, ``Cuba forced to sell technology,'' The 
Miami Herald, October 10, 2001.
    \42\ ``Terror's Servant,'' Editorial, The Miami Herald, October 12, 
2001.
---------------------------------------------------------------------------
    Also in mid-October, an NBC/MSNBC story raised concerns over Cuba's 
alleged sales of biotechnology to the Iranians, claiming the Soviets 
had helped Castro build one of the world's most sophisticated 
biotechnology industries, which could ``also be used to build weapons 
of mass destruction.'' \43\ General Charles Wilhelm, a former Southcom 
Commander affirms: ``The indications we have is that they have the 
capability to produce those type of substances.'' The report also cites 
a 1996 Canadian Security Intelligence Service report that ``Cuba has 
been a supply source (to terrorist groups) for toxin and chemical 
weapons'' and a 1995 U.S. Senate report which included Cuba as one of 
17 countries believed to have biological weapons. In addition, it 
recounted Cuba's use of biological weapons to kill rebels opposed to 
the Marxist government during the Angolan Civil War.\44\
---------------------------------------------------------------------------
    \43\ In May of 2001 Castro went on a tour of Iran, Syria, Algeria 
and Malaysia. In Tehran he declared that Cuba and Iran could together 
``bring the United States to its knees.'' Stating that the United 
States was weaker than ever, he called for Iran-Cuba cooperation to 
contribute to the downfall of the ``imperialist king.'' (``Castro 
pronostica en Iran el hundimiento de EU,'' Associated Press, Tehran, 
May 13, 2001.)
    \44\ Ike Seaman's Report, NBC 6, 10/10/01.
---------------------------------------------------------------------------
    How an offensive program of this nature might be kept secret is not 
difficult to imagine. The 1999 Herald story included Mr. Alibek's 
reaction to refutations by U.S. government officials: ``You have to 
understand that bio-weapons is one of the most sensitive topics in the 
world. No one shares this type of information, even with best friends. 
But in my personal opinion, I have no question Cuba is involved.'' \45\
---------------------------------------------------------------------------
    \45\ J.O. Tamayo, ``U.S. skeptical,'' op.cit.
---------------------------------------------------------------------------
    Despite the involvement of many thousands of people, only a few top 
scientists and a small circle of the Kremlin leadership understood the 
full scope of the Soviet Union's huge biowarfare program Biopreparat. 
Over forty facilities dispersed over the country and a vast amount of 
acreage were used in the program, yet it was kept under wraps thanks to 
tight security, elaborate cover operations and legitimate civilian work 
(which, according to Alibek, actually never accounted for more than 15% 
of the research and development activities).\46\ Its former top 
scientist has stated: ``To the outside world, Biopreparat was a state-
owned pharmaceutical complex that developed drugs and vaccines for the 
civilian market. In reality, it was an elaborate front for a military-
funded program code-named Fermenty (the Russian word for enzymes) which 
aimed to develop a new generation of super-lethal biological weapons.'' 
\47\
---------------------------------------------------------------------------
    \46\ Biopreparar consisted of forty research-and-production 
facilities, some of them enormous; around half of its employees are 
said to have worked developing weapons while the other half made 
medicines. In the late 1980s and early 1990s, over 60,000 people were 
involved in the research, development, and production of biological 
weapons. The total production capacity of all of the facilities 
involved was many hundreds of tons of various agents annually--
including anthrax, smallpox, and plague. (Sources as in footnote 15.)
    \47\ J. Tucker, Scourge, p. 145.
---------------------------------------------------------------------------
    A high-ranking Cuban sociologist, former member of Cuba's Communist 
Party and head of an important Sociological Research Center in Cuba, 
has explained that, although she had no knowledge of biochemical 
weapons programs in Cuba, she did have the suspicion. According to Dr. 
Maida Donate-Armada,\48\ the biotechnology center was under the 
strictest military control despite the appearance of civilian activity. 
``Civilian scientists and other professionals are the face to the 
world, but their military counterparts, who come and go as they please 
within the structure, have access to all the scientific work produced 
by civilians. In turn, they don't have an institutional identification, 
nobody knows what they are working on and they do not share the results 
of their work.'' \49\
---------------------------------------------------------------------------
    \48\ Dr. Donate-Armanda, a historian-psychologist-sociologist 
trained in Cuba, was a specialist in living conditions with the Cuban 
Institute of Internal Demand Management (Instituto Cubano 
deinvestigaciones y Orientacion de la Demanda Interna (ICIODI)). She 
defected in Spain in 1993 while attending a conference.
    \49\ Maida Donate-Armada, e-mail to the author, September 3, 1998.
---------------------------------------------------------------------------
    Jose de la Fuente, who from 1990-98 was Director of Research and 
Development at the Center for Genetic Engineering and Biotechnology 
(CIGB) in Havana, has attested to the frustration of witnessing 
``institutional paralysis'' as a result of the impossibility for the 
biotechnology centers to decide on internal policy ``even for small 
things.'' ``All decisions,'' he reports, ``were made by the Secretary 
of the State Council, Jose M. Miyar Barrueco (`Chomi') at Castro's 
personal insistence.'' What's worse, Miyar--known to be a very close 
protege of Raul Castro--was, according to de la Fuente, ``incapable of 
deciding scientific matters, because of his background.'' \50\
---------------------------------------------------------------------------
    \50\ Jose de la Fuente, ``Wine into vinegar--the fall of Cuba's 
biotechnology,'' Nature Biotechnology, October 2001. (De la Fuente fled 
Cuba by boat in 1999 and is now on the faculty of Oklahoma State 
University.)
---------------------------------------------------------------------------
    Mr. Alibek has provided detailed accounts of the lengths to which 
the Soviet Union went to keep its huge bioweapons program secret and 
the West's scientific and intelligence communities under the impression 
that it was honoring the Biological and Toxin Weapons Convention, which 
it had signed in 1972. These efforts were entirely successful. ``There 
was a comnonly held belief among many American scientists, supported by 
the strong, even passionate views of a handful of experts in biological 
weapons, that the Soviet Union was not violating the treaty.'' \51\ In 
fact, the public was kept in the dark until early 1998. After his 
defection to the United States in 1992, Alibek had briefed U.S. 
intelligence and scientific experts for almost a year, but until 1998 
only the national security community had access to the information he 
brought.\52\
---------------------------------------------------------------------------
    \51\ R. Preston, ``The bioweaponeers,'' op.cit. On this issue, also 
see J. Tucker, Scourge, op.cit.
    \52\ In October 1989, a Biopreparat scientist, Dr. Vladimir 
Pasechnik, had defected to Great Britain while on an official visit to 
France. His briefings stunned the British and U.S. governments, which 
delivered a formal diplomatic protest to Soviet leader Mikhail 
Gorbachev. Gorbachev denied the allegations and invited inspection 
teams. The Soviets, under Alibek's direction, prepared their cover for 
months; the inspection team, however, left with strong suspicions that 
the Soviets were hiding the truth. Mr. Alibek, then, led the Soviet 
team that reciprocated with visits to U.S. facitilities they had 
requested to inspect. This visit was what prompted Mr. Alibek's 
reckoning and later defection. (J. Tucker, op.cit. pp. 159-162.)
---------------------------------------------------------------------------
                    the accounts of cuban defectors
    For several years now, a number of top Cuban defectors and exiles--
scientists and former high-ranking Cuban officials and members of the 
military--have been reporting of first hand or circumstantial knowledge 
of Cuba's biological and chemical weapons programs.
    In 1997, former Cuban Air Force Commander Alvaro Prendes,\53\ 
exiled in 1994, appeared on Spanish-language radio stations in Miami 
reading from documents he claimed had been prepared by dissident Cuban 
military officers and scientists and smuggled out of Cuba. They 
described in great detail biotechnology facilities serving as fronts 
for military operations producing bioweapons such as anthrax and 
bubonic plague.\54\
---------------------------------------------------------------------------
    \53\ Prendes had trained as a fighter pilot in the U.S. Fidel 
Castro, upon assuming power, asked him to head Cuba's Air Force, later 
promoting him to Commandant (highest rank in Cuba's Armed Forces, 
equivalent to full General). During his long career, he faced numerous 
setbacks and demotions, including three court martials, for ``political 
discrepancies'' with superiors, but was sent for special air force 
training at the Soviet Union and received assignments such as 
Commanding Officer of the San Antonio de los Banos Air Base, home of 
the Central Air Command (where he received orders directly from Fidel 
Castro), Commander and Tactical Operations Chief of all MIG squadrons 
and Second in Command of the International Directorade of Cuba's Armed 
Forces. He became an increasingly vocal opponent to the Castro 
government, calling for a national dialogue, free speech and economic 
reform in the presence of the foreign media (1992) and writing a letter 
calling on Fidel Castro to resign. Facing a Court Martial and severe 
persecution, he was granted political asylum by the U.S. govemment and 
left for the U.S. via Spain in 1994. Prendes is now the Miami-based 
spokesman for the Union of Free Soldiers and Officers, composed of 
former Cuban military in exile and clandestine pro-democracy 
acquaintances within Cuba's military and security services. (Telephone 
conversations, e-mail exchanges and documents sent by Col. Prendes to 
the author, October 2001.)
    \54\ Juan O. Tamayo, ``U.S. downplays . . .,'' The Miami Herald, 2/
4/97, op.cit.
---------------------------------------------------------------------------
    In mid-1998 The Washington Times' Insight magazine featured an 
investigative report citing the Prendes documents and other underground 
sources from Cuba.\55\ It provided extensive description of five 
chemical and biological weapons facilities said to be operating 
throughout the island, and details such as how some of the plants were 
constructed, security arrangements, the purchase overseas and shipping 
of sophisticated lab equipment, and names of the scientists and 
engineers from military establishment who ran the operations.\56\ The 
Times further reported that ``the credibility of the smuggled documents 
is enhanced by a recent classified Pentagon analysis.'' In addition, it 
cited from a classified annex to a Pentagon report to Congress: 
``According to sources within Cuba, at least one research site is run 
and funded by the Cuban military to work on the development of 
offensive and defensive biological weapons.''
---------------------------------------------------------------------------
    \55\ Martin Arostegui, ``Fidel Castro's Deadly Secret--Five BioChem 
Warfare Labs,'' The Washington Times, Insight Magazine, Vol. 14, No. 26 
July 20, 1998. (Prendes also made part of the documents available to 
the author.)
    \56\ For details on these biochemical facilities, see M. Arostegui, 
ibid, and Jonathan T. Stride, ``Who Will Check Out Fidel Castro's New 
Chemical/Biological Weapons Plant in East Havana,'' Miami. Mr. Stride 
also held lengthy interviews with Prendes and had access to the 
documents sent from Cuba (as related by Mr. Prendes to the author). In 
1999 Miami media also reported of another defector, Ernesto Prida, who 
worked at the Bureau of Scientific Research of the Cuban Armed Forces, 
essentially confirming some of the information in the Prendes 
documents. (A. Remos, Diario Las Americas, 7/13/99.)
---------------------------------------------------------------------------
    According to Ernesto Betancourt, a former Radio Marti Director who 
had security clearance, classified CIA reports dating back to 1989 
already described Cuban efforts to acquire technology and equipment to 
manufacture biological weapons.\57\ The Prendes documents, in fact, 
related how a biochemist and Politburo member of Castro's presidential 
staff made, in the early 1990s, numerous trips to Europe, the Middle 
East and the former Soviet Union to arrange purchases for a new 
macrobiology plant. A centrifugal reactor capable of 10,000 revolutions 
per minute--to separate biological microorganisms from solid and liquid 
substances--was acquired through Comicondor, an Italian company near 
Milan which also supplies technology to Libya for Qaddafi's biological-
weapons experiments. After arrival of the lab equipment, the plant was 
slowly equipped and finally inaugurated on December 2, 1993--Armed 
Forces Day. The centrifugal reactor is said to be crucial to the 
development of other biological microorganisms for use in warfare.\58\
---------------------------------------------------------------------------
    \57\ Radio Marti is a Voice of America project. Dr. Betancourt is 
cited in The Washington Times article (M. Arostegui, op.cit.) and has 
confirmed this and other related information in conversations with the 
author over several years.
    \58\ The report also provides details of the ship that transported 
the reactor to Cuba, leased by front companies operated by Cuban 
military intelligence and with a crew carefully selected or employed by 
the Office of State Security, MININT. Accounting records for the lab's 
construction were said to have been meticulously covered up through 
authorized funding for extensions to existing medical facilities and 
the remodeling of Havana's historical El Morro Fortress. (In M. 
Arostegui and J. Stride, op.cit.)
---------------------------------------------------------------------------
    The documents also provide details of the work being conducted at 
several biochemical facilities. At the Luis Diaz Soto Naval Hospital, 
for example, military biotechnicians are said to experiment on 
cadavers, hospital patients and live animals with anthrax, brucellosis, 
equine encephalitis, and a variety of other bacterial agents. 
Experiments are reported on insects, rats and even house pets to be 
used as vectors. An extensive report is also given of a facility 
established in 1994, known as ``The Little Factory.'' Despite its 
public description as a cattle feed producer (Fabrica de Pienso 
Animal), entry to the facility is controlled by the Cuban Armed Forces 
and said to be restricted to personnel with top-secret clearance. The 
plant is reported to cover an area of 120 by 90 meters, bigger than a 
couple football fields \59\
---------------------------------------------------------------------------
    \59\ J. Stride, op.cit.
---------------------------------------------------------------------------
    In 1992, Carlos Wotzkow, a leading Cuban ornithologist, had been 
forced to leave Cuba for Switzerland for his critical work on the 
demise of Cuba's ecology. In 1998, he published Natumaleza Cubana,\60\ 
a detailed account of the destruction of the Cuban environment and a 
damning expose of his professional experiences in Cuba. In it was a 
brief account of the beginnings of a biological warfare program within 
the Institute of Zoology, where he worked at the time, and how the 
scientific purposes of the institution had been militarized; its 
scientists purged for political purposes.
---------------------------------------------------------------------------
    \60\ Carlos, Wotzkow, Natumaleza Cabana (Miami: Ediciones 
Universal, 1998). Wotzkow fell in disfavor for presenting papers 
overseas on the destruction of Cuba's environment. He was allowed out 
of the country after Germany tiled a protest. He was granted political 
asylum in Switzerland, where he still lives and works for a Swiss-U.S. 
joint venture. (Related by e-mail to the author, October 21, 2001.)
---------------------------------------------------------------------------
    Wotzkow related how, in 1981, Fidel Castro gave orders to create 
within the Institute of Zoology the ``Frente Biologico del 
Instituto''--a ``biological front'' to develop bioweapons against the 
United States by spreading infectious diseases through implantation in 
migratory birds. This was a joint project with the Instituto de 
Medicina Tropical Pedro Kouri and many scientists were involved--often 
indirectly or without cognizance of the purpose of the work they were 
instructed to conduct. Fidel Castro personally supervised many of the 
activities and paid personal visits to the facilities.\81\
---------------------------------------------------------------------------
    \61\ Ibid. p.58. (Also see ``Fidel Castro: decano del 
bioterrorismo,'' an interview of Carlos Woztkow by Eduardo Prida, 
Bienne, Noviembre 1999.)
---------------------------------------------------------------------------
    During Wotzkow's tenure at the Institute of Zoology, which ended in 
1982, the preferred patogen for experimenting with migratory birds was 
the leptospirosis (bacteria). Later, he has been told of the 
development of the anthrax bacteria, but doubts ``that Castro would 
spend too much money on bacteria when he has native virus within the 
island's bat population . . . which would cause devastating damage 
without the possibility of treatment with antibiotics.'' \62\ Wotzkow's 
work and his many scientific trips over Cuba in military aircraft put 
him in contact with the highest leadership of the Cuban government, 
including Fidel Castro.\63\
---------------------------------------------------------------------------
    \62\ Carlos Woztkow, e-mail to the author, October 19, 2001. (Of 
course, Wotzkow, like most people, could not imagine then that rapidly 
unfolding events in the United States have already proven the 
effectiveness of bioterrorism with bacteria (anthrax).)
    \63\ During his tenure at the Institute of Zoology, Wotzkow made 
over a thousand scientific trips all over Cuba, including 72 trips to 
Cayo Largo in military airplanes that left from the Ciudad Libertad 
military base (formerly Columbia). (Carlos Wotzkow, e-mail to the 
author, October 21, 2001.)
---------------------------------------------------------------------------
    Woztkow also claims that in the 1970s Cuba had also experimented 
with chemicals, testing the effectiveness of certain powders and gases 
exposed to the oxygen of caves. It was thought that if the caves' 
entomofauna (insects) died--as resistant as it was to sudden 
environmental changes--no man would be able to survive them.\64\
---------------------------------------------------------------------------
    \64\ General Tomasevich related this to Wotzkow in 1980 during a 
flight they took together to Cayo Largo. (C. Woztkow, e-mail of 10/19/
01.)
---------------------------------------------------------------------------
    Professor Luis Roberto Hernandez,\65\ who defected from Cuba while 
attending a conference in London in 1995,\66\ confirmed Wokztkow's 
claims in late 1998. El Nuevo Herald published a story of Wotzkow's 
allegations in Natumaleza, which included Dr. Hernandez' first public 
account of his own experiences.\67\ He related how the laboratories for 
the ``biological front'' were established within the Institute of 
Zoology, where he too had worked, and sought to identify and produce 
host viruses for migratory birds. There, only two top scientists had 
full access to all the ``top secret'' labs.
---------------------------------------------------------------------------
    \65\ Hernandez, an entomologist, has a long and distinguished 
career of teaching, field work, and research in Cuba and with the 
foremost scientific institutions of the United States, England, Puerto 
Rico, Nicaragua, the Dominican Republic and others.
    \66\ Hernandez was not planning to defect, but was called by a 
colleague that, due to political unreliability, a plan was underway to 
accuse him of spying and arrest him upon his return to Cuba. He stayed 
in London with his wife, but they left behind a son, who was unable to 
leave Cuba for years. Fear for the son in Cuba delayed Hernandez from 
coming forth with his account. (Dr. Hernandez in telephone conversation 
of October 19, 2001, and in previous conversations with the author, 
who's known Hernandez for several years.)
    \67\ Pablo Alfonso, ``Cuba experimenta con ayes con fines de guerra 
bacteriologica,'' El Nuevo Herald, October 18, 1998.
---------------------------------------------------------------------------
    Cuba, Hernandez claimed, continued the project at a farm outside 
Havana, where a vast nesting program had been established to study the 
routes and habits of migratory birds. U.S. scientists, he said, had 
naively collaborated in these studies with their own work on nesting. 
In addition, he knew that Cuba had conducted studies on the Culex 
mosquito, main vector for the encephalitis virus that is particularly 
resistant to certain insecticides. In fact, he reported, a Cuban 
scientific journal had described how, in 1998, the CDC (Centers for 
Disease Control) in Atlanta had donated a standard strain to Cuba of 
the St. Louis encephalitis virus, which is similar to, but more potent 
than, the West Nile virus.\68\
---------------------------------------------------------------------------
    \68\ Revista Cabana de Medicina Tropical, Vol. II/1996. Ibid. (Ken 
Alibek also reported that Soviet intelligence services obtained 
numerous strains of virus for the biowarfare program through covert 
operations--including ordering them through undercover agents posing as 
legtimate researchers. J. Tucker, op.cit, p. 140.)
---------------------------------------------------------------------------
    Dr. Hernandez explains how the secrecy of the program was 
maintained: ``Everything is very compartimentalized. If you work in one 
area or field, you don't know who's work you're complementing. But, 
naturally, you can infer things.'' In all the centers working in the 
biotechnology field, he elaborates, there is very tight security; for 
example, ``if you work on one floor, you don't have access to other 
floors--yet this is supposedly scientific work for which this is not 
required or expected. There's electric fencing surrounding the 
facilities, codes to get into different areas, a lot of secrecy. At the 
Pedro Kouri Institute, even the scientists couldn't walk around. This 
didn't make sense.'' \69\
---------------------------------------------------------------------------
    \69\ L. Hernandez, telephone interview, 2/19/01.
---------------------------------------------------------------------------
    As an entomologist, Hernandez became involved in the migratory 
birds' project and had colleagues working on it who also wondered what 
ultimate purpose was pursued. For example, he says, ``we were 
instructed to look into virosis, such as parvovirus and others. I had 
another colleague who was asked to collect blood samples from birds. In 
the meantime, the Department of Ornithology was instructed to trap 
birds from routes that go through the United States.'' In conclusion, 
``one puts it together.'' Finally, he adds: ``Fidel Castro, we know, 
called for a `biological front' to develop a biological weapons 
program. I cannot be 100% sure, but I'm almost sure, that Cuba has 
worked on developing biological weapons. There are others who feel this 
way, but are afraid to speak out. I'm also troubled that men I know are 
Cuban agents are currently working with birds in farms in Puerto Rico. 
What for?'' \70\
---------------------------------------------------------------------------
    \70\ Ibid. Currently, Dr. Hernandez is professor of entomology at a 
university in Puerto Rico.
---------------------------------------------------------------------------
    Both Wotzkow \71\ and Hernandez have said that Castro believed the 
United States was waging biological war against Cuba and was looking 
for ways to respond. Hernandez has recently published an article 
detailing how there was no scientific basis for certain allegations 
with which he had direct involvement due to his work.\72\ In Biohazard, 
Alibek relates how Cuba had accused the United States twelve times 
since 1962 of staging biological attacks on Cuban soil with anti-
livestock and anti-crop agents, yet a high-level Soviet investigation 
found these allegations to be all ``probably false.'' Zilinska, the 
Soviet in charge, had further reported that none of the Cuban 
scientists supported the government position on U.S. germ warfare. He 
had said: ``They are keeping quiet. So it makes me believe that these 
allegations are a pure propaganda exercise by Cuba.'' Furthermore. he 
``was worried about whether Castro could be using the charges to 
justify his own germ warfare program.'' \73\
---------------------------------------------------------------------------
    \71\ C. Wotzkow, Natumaleza. op.cit., p. 179.
    \72\ Dr. Hernandez debunks specific allegations of biological 
attacks from the U.S. (Luis Roberto Hernandez, ``El bumerang maldito,'' 
Encuentro en la Red, Ano 2, Edicion 216, 18 de octubre 2001. 
www.cubaencuentro.com/ecologia/2001/10/18/3952.html.)
    \73\ Alibek tells of an invitation Soviet General Lebedinsky had 
received from Castro. Together with a team of military scientists, they 
went to Cuba to study an epidemic of dengue fever that had broken out a 
few months earlier, infesting 350,000 people. Castro had been convinced 
it was the result of an American biological attack. The Soviet team 
concluded that ``all the evidence pointed to a natural outbreak--the 
strain was Cuban, not American--but Castro was less interested in 
scientific process than in political expediency.'' (Alibek, Biohazard, 
ibid.)
---------------------------------------------------------------------------
    Most recently, Jose de la Fuente--who was Director of Research and 
Development at the Center for Genetic Engineering and Biotechnology 
(CIGB) in Havana from 1990 to '98--confirms Cuba's huge investment in 
biotechnology and expresses concern that Cuba has placed ``the prized 
fruits of the CIGB'' in Iran's hands.\74\ He discloses how, in an 
effort to seek hard currency after the end of massive Soviet support, 
between 1995 and 1998 Cuba sold to Iran biotechnology which could be 
used to produce biochemical weapons.\75\ (Iran is, like Cuba, one of 
seven nations on the State Department's list of states that sponsor 
terrorism.\76\) He concludes: ``There is no one who . . . believes that 
Iran is interested in these technologies for the purpose of protecting 
all the children in the Middle East . . .'' A representative of the 
Cuban Interest Section, in turn, acknowledged that Cuba has sold 
pharmaceutical products to a number of countries.\77\
---------------------------------------------------------------------------
    \74\ J. de la Fuente, ibid; Nancy San Martin. ``Cuba forced to sell 
technology,'' The Miami Herald, October 10, 2001.
    \75\ De la Fuente describes a strengthening of Cuban-Iranian 
cooperation beginning with Cuban aid shortly after the Iranian 
earthquake of 1990. He writes that Cuba sold Iran recombinant protein 
production technologies in yeast and Escherichzia coli, as well as the 
large-scale purification protocols for both soluble and insoluble 
proteins synthesized in or excreted by them. This technology was 
allegedly for civilian/medical uses, but is reportedly the same 
technology that could be used to produce lethal agents in biochemical 
weapons--like anthrax bacteria or smallpox virus. (J. de la Fuente, 
op.cit. and N. San Martin, op.cit.) De la Fuente discussed this with 
the author in a telephone conversation of October 9, 2001, but said he 
does not believe Cuba had malicious intent.
    \76\ The State Department's Report, Patterns of Global Terrorism 
2000 asserts: ``Iran remained the most active state sponsor of 
terrorism in 2000.'' (www.state.gov/s/ct/rls/pgtrpt/2000).
    \77\ N. San Martin, op.cit.
---------------------------------------------------------------------------
    Indeed, Cuba's massive investment in biotechnology cannot be 
explained in rational economic terms. De la Fuente, for example, 
reports that in 1996 the CIGB alone had 1,100 employees with more than 
200 scientists in R&D working on a pipeline of 112 products, the result 
of an investment of more than one billion U.S. dollars since the 
Center's inception in 1986.\78\ Yet, the data available \79\ indicates 
that the entire Cuban pharmaceutical-biotechnology industry was 
reportedly exporting a mere US$50 million per year for the period 1995-
99.\80\
---------------------------------------------------------------------------
    \78\ He describes the inauguration of the CIGB in 1986 as the 
beginning of the maturation of biotechnology in Cuba and puts the 
initial investment at approximately US $100 million (used to fully 
equip modern research in areas covering pharmaceuticals and 
immunodiagnostics, vaccines, animal, plant, and industrial 
biotechnology).
    \79\ The Latest CEPAL (ECLA--the United Nations Economic Commission 
on Latin America) economic report for Cuba--a foremost tool on Cuba's 
economy--fails to present export data on the medical-pharmaceutical 
sector despite providing this information for other sectors. (See Cuba: 
Evolucion Economica: 2000, Comision Economica para America Latina y el 
Caribe, Naciones Unidas (CEPAL), LC/MEX/L.465 21, May 21, 2001.)
    \80\ The Economic Impact of U.S. Sanctions with Respect to Cuba, 
International Trade Commission, USITC publication 3398, February 2001. 
ftp://ftp.usitc.gov/pub/reports/studies/pub3398.pdf (The ITC report 
states that Cuba's trade data precludes separating the pharmaceutical 
and biotechnology industries. It also states that Cuba is reported to 
have developed a number of original vaccines and generic pharmaceutical 
products. A CIGB brochure is cited as reporting that in 1996 it had 128 
product registrations in 34 countries.)
---------------------------------------------------------------------------
                            recommendations
    Cuba is a signatory of both the Biological Weapons \81\ and the 
Chemical Weapons Conventions \82\--together they outlaw the possession 
of chemical and biological weapons of mass destruction. Yet, given the 
first hand accounts and strong circumstantial evidence indicative of 
non-compliance, Cuba should submit to independent verification.
---------------------------------------------------------------------------
    \81\ The Convention on the Prohibition of the Development, 
Production and Stockpiling of Biological and Toxin Weapons and on their 
Destruction, open for signature in Washington, London, and Moscow on 
April 10, 1972. Cuba was among the original signatories (1/13/93) and 
ratified it on April 4, 1997. (www.umn.edu/humanrts/instree/1972a.htm)
    \82\ The Convention on the Prohibition of the Development, 
Production, Stockpiling and Use of Chemical Weapons and on their 
Destruction, signed in Paris on January 13-15, 1993. (See the 
Convention at www.opcw.org)
---------------------------------------------------------------------------
    The Biological Weapons Convention does not incorporate compliance 
and verification mechanisms, but the Cuban government is on the record 
denying the production of biological weapons.\83\ Cuba should, thus, 
have no objection to inspection. It should also be taken into account 
that Cuba's alleged biowarfare program is said to have been set up 
during its alliance with the Soviet Union. The Soviets initiated their 
biowarfare program a year after the USSR had signed the Convention 
banning the development, production and stockpiling of all offensive 
biological agents. Despite forceful and official denials, it was only 
after irrefutable testimony provided by top defectors and the actual 
breakdown of the USSR that the Russian Federation acknowledged its 
violation of the Biological Weapons Convention.\84\
---------------------------------------------------------------------------
    \83\ 1n 1998, a spokesman for the Cuban Interests Section in 
Washington told The Washington Times: ``We are producing medicines, not 
weapons. (. . .) We deny the Pentagon's charges of offensive potential 
in our biogenetic industry.'' (M. Arostegui, TWT/Insight, op.cit.)
    \84\ In April 1992, Boris Yeltsin admitted to the Soviet Union's 
violation of the Convention and issued an edict banning further 
offensive research and development. The Soviet program, Biopreparat was 
set up in 1973, just a year after the Soviet Union signed the 
Convention banning the development, use, and stockpiling of biological 
weapons. The October 1989 defection to Great Britain of a Biopreparat 
scientist, Dr. Vladimir Pasechnik, prompted the British and U.S. 
governments to deliver a formal diplomatic protest to Soviet leader 
Mikhail Gorbachev. Gorbachev denied the allegations and invited 
inspection teams in. The Soviets prepared their cover for months, but 
the inspection team left with strong suspicions that the Soviets were 
hiding the truth. (J. Tucker, ibid. pp. 159-162, 168 and other sources 
as per footnote 14.)
---------------------------------------------------------------------------
    The Chemical Weapons Convention (CWC) has detailed provisions on 
compliance and verification. In fact, it established the Organization 
for the Prohibition of Chemical Weapons (OPCW), headquartered in The 
Hague, which provides mechanisms of implementation and international 
verification of compliance.\85\ The United States should submit an 
immediate inspection challenge to the OPCW's Executive Committee. \86\ 
\87\
---------------------------------------------------------------------------
    \85\ See the Convention, namely Art. VIII, and Leonard Cole. ``The 
Specter of Biological Weapons,'' Scientific American, December 1999, 
pp. 60-65.
    \86\ Cuba is a member of the Executive Committee of the OPCW for 
the 2000-2002 period. The Executive Council consists of 41 members, 
including seven states parties from Latin America and the Caribbean, 
designated by states located in that region. Each state party has the 
right, in accordance with the principle of rotation, to serve on the 
Executive Council; members are elected for a term of two years.
    \87\ Under Article IX of the CWC any State Party can request the 
Secretariat to conduct an on-site challenge inspection anywhere in the 
territory of any other State Party. States Parties are not granted the 
right to refuse a challenge inspection, regardless of the nature of the 
location at which it is to take place.
---------------------------------------------------------------------------
    Verification of Cuba's compliance with both Conventions should be 
conducted through inspections characterized by the ``any time, any 
place'' concept incorporated in the CWC (they are to be launched at 
very short notice and can be directed at declared or undeclared 
facilities and locations). The inspections should also take place over 
an indefinite period of time.
    The United States government should, regardless of international 
efforts and without further delay, form an interagency Task Force on 
Cuba to study this specific issue exclusively, gathering all 
intellirnce reports from different agencies and reassessing the 
potential threat to U.S. security.\88\ The Task Force should also 
conduct a serious and thorough review of the allegations of scientists 
and other defectors from Cuba that, up to now, have been mostly 
ignored.\89\
---------------------------------------------------------------------------
    \88\ This is particularly important in the wake of the September 
21st, 2001 arrest of Ana Montes, the Defense Intelligence Agency's top 
Cuba specialist, for spying for Cuba. Reportedly, she could have had a 
very influential role in downplaying the threat posed by Cuba to the 
United States. (See John J. Miller, ``Under In Castro's Service: The 
undertold story of Cuba's spying, and terror,'' National Review, Vol. 
LIII, No. 21, November 5, 2001 and Christopher Marquis, ``Labels of 
analyst vary, but spy came as a surprise,'' The New York Times, 
September 30, 2001.)
    \89\ The author understands that all of the Cuban defectors 
interviewed for this paper have not been debriefed by U.S. intelligence 
or government representatives.

    Senator Dodd. Thank you, Senator.
    Before I turn to Senator Levin, I just want to come back, 
because in reading the speech Mr. Bolton gave, because he goes 
on in some paragraphs, this one paragraph is yours, but your 
staff said they read the whole speech and had the whole speech 
and looked at it. So he asked the question here, ``Why was the 
1998 report on Cuba so unbalanced?'' I'm quoting the speech 
here.
    My first question to you was has there been any change in 
the assessment on Cuba? Your answer was ``no, substantially 
not.''
    Mr. Ford. No, there has not.
    Senator Dodd. So is that statement ``unbalanced,'' is that 
an inaccurate statement based on the INR's assessment?
    Mr. Ford. INR's position is that, that--as I was stating 
and that I will elaborate on later, but how people characterize 
that is not my call. They can--we're just intelligence----
    Senator Dodd. When you're given a speech to look at and you 
see that someone's about to make, in the administration, make a 
characterization that the work of your agency only 3 years 
earlier was unbalanced----
    Mr. Ford. It would not be the first time that someone took 
a shot at the intelligence community. It's not our 
responsibility to put words in the mouths of policymakers.
    Senator Dodd. Did you raise, did anyone raise, any 
objections to that word being used, even though I understand 
it's policy? I mean, if I saw someone was going to say 
something about my office, I'd say, well, that's incorrect--if 
you feel that's incorrect. I presume you feel that's incorrect; 
is that right?
    Mr. Ford. It certainly is not INR's position.
    Senator Dodd. OK. Well, you look at the whole speech, it 
seems to me when you've got paragraph after paragraph here--you 
know, we went through a period back in the eighties when we had 
a lot of assessments about the Soviet Union that turned out to 
be terribly wrong in terms of their capabilities, economically 
and otherwise.
    My concern here is, look, if Cuba's got this stuff I want 
to know it, and I want to deal with it immediately, and if they 
don't we don't want to raise specters here that divert 
attention, resources, and the like when they ought to be going 
elsewhere. That's my concern. So when you get a speech like 
this, when I have INR disagreeing--I understand you agree with 
certain pieces here, but there's a lot of rhetoric around this, 
made by a very high-ranking administration official, that had 
to be corrected, as Senator Chafee has pointed out, by various 
people trying to spin this correctly. That worries me and 
concerns me, as we're trying to make decisions both in the 
administration and in the Congress about how to allocate 
resources, time and attention.
    So that's the reason I raised it.
    Senator Levin.
    Senator Levin. Thank you. And thank you, Mr. Chairman and 
our colleagues, for allowing me to join you for a few minutes 
here just to ask a few questions.
    Senator Dodd. Not at all.
    Senator Levin. Your prepared remarks indicate the 
difficulty in differentiating between legitimate biomedical 
technology and illicit offensive biological warfare technology 
because the technologies are essentially identical; is that 
correct?
    Mr. Ford. That's correct, Senator.
    Senator Levin. So that's where we get into the dual-use 
issue. How many countries other than Cuba are supplying dual-
use biomedical technology to these states such as Iran? Do we 
have some pretty good allies that are doing the same thing?
    Mr. Ford. I don't know, Senator, and I'll have to take the 
question and get back to you. I don't normally--I just don't 
have that in my notes.
    Senator Levin. Can you find out how many of our NATO allies 
are supplying technology to Iran of the same type?
    Mr. Ford. Yes, sir.
    Senator Levin. Would it surprise you to find out that some 
are?
    Mr. Ford. No.
    Senator Levin. Have we protested that to them?
    Mr. Ford. I don't know.
    Senator Levin. Can you find that out for us?
    Mr. Ford. Yes.
    Senator Levin. The use of the words ``has an effort'' is an 
unusual construction of the English language. You said this 
morning that there's a distinction between effort and program.
    Mr. Ford. That's correct.
    Senator Levin. Usually when you are making an effort you 
are ``making an effort,'' you don't ``have an effort.'' It 
suggests that there was a different construction when this was 
first drafted and then the word ``program'' was changed to 
``effort''; is that correct?
    Mr. Ford. No, sir.
    Senator Levin. So this was always structured as ``has an 
effort''? It was never ``making an effort''?
    Mr. Ford. Well, the history has been told to me. I didn't 
live it, so I can only give you my version of it. But my 
understanding is that the issue of whether it was a program or 
an effort goes back at least to the 1999 National Intelligence 
Estimate, and that at least a distinction that we make is that 
a program has certain classic signatures that we developed in 
the intelligence community from looking at the Soviet Union and 
the Russian CW/BW program. And it has certain components. And 
that those--that's called a program, because it has a 
multifaceted, many components to it that are all designed to 
create military weapons that can be delivered by military 
forces, conventional military forces--artillery units, air 
forces, et cetera.
    An effort in our minds is the research and development 
necessary to create BW weapons in the laboratory that can be 
delivered in conventional means, by putting into a weapon that 
may have already been built and you bought from Russia for 
conventional purposes, or, more likely, delivered in some 
unconventional way; and that it stops short of being a full-
fledged 100 percent major program to develop a stockpile of 
hundreds, thousands of biological weapons.
    Senator Levin. I think you may have been asked earlier, but 
if so, forgive me for asking this again. There was a newspaper 
account in the Washington Times on May 7 that stated that a 
senior administration official said ``Washington has gathered 
broad and deep evidence of Cuba's pursuit of biological 
weapons.'' Have we?
    Mr. Ford. I've characterized the INR's position, which I 
think also reflects the community, that we believe that the 
evidence--our judgment is that the evidence supports a limited 
development, a development offensive BW capability.
    Senator Levin. Is it broad and deep evidence of the pursuit 
of biological weapons, the focus on ``weapons''?
    Mr. Ford. Clearly we're suggesting that Cuba is working on 
biological weapons.
    Senator Levin. And that we have broad and deep evidence of 
their pursuit of weapons? I just want to know, is that a fair 
characterization of that finding?
    Mr. Ford. I was not the senior administration official that 
the Times is talking about.
    Senator Levin. In your judgment is that a fair 
characterization?
    Mr. Ford. There's no one on my staff--I would not have 
characterized it as broad and deep. I would say that there is 
substantial information about Cuba's BW program.
    Senator Levin. All right. Do you know who issued that 
statement?
    Mr. Ford. No.
    Senator Levin. It does not reflect, however, in your 
judgment, your finding, your characterization?
    Mr. Ford. I didn't say it. I would characterize it slightly 
differently.
    Senator Levin. Have you attempted to find out who 
mischaracterized it?
    Mr. Ford. No. I have asked the question myself, I wonder 
who that was, but I haven't--no one has admitted it to me.
    Senator Levin. But you have sought to find out, is that it?
    Mr. Ford. Well, like anybody who has followed this, I have 
asked the question, I wonder who said that?
    Senator Levin. Why?
    Mr. Ford. Well, I just thought it was interesting. Clearly 
the committee here thought it was interesting, and I've 
certainly gotten more questions about Cuba and Cuba BW in the 
last month or so than I ever realized that you could ask, quite 
frankly.
    Senator Levin. You will submit to the committee, I believe, 
if I'm allowed to ask that--Mr. Chairman, I think I can't ask 
that, so I have to ask you whether or not it would be all right 
if we ask our witness to submit those two lists to the 
committee that I suggested.
    Senator Dodd. Yes, we will make that request.
    Mr. Ford. I'd be happy to, Senator. I'm not sure how long 
it will take us. It may already be prepared and I'll just go 
ask somebody to give it to me, or it may be we'll have to do a 
little bit of work. But we'll put it together for you.
    [The information requested is classified.]

    Mr. Ford. [DELETED].

    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Senator Dodd. That Miami Herald story, which I think was 
the same article in which the words of ``broad and deep''--it 
may not have been, maybe. Well, it's not the Miami Herald. That 
was the Washington Times. The Miami Herald in October of last 
year contained a story claiming that Cuba has sold to Iran 
production technology for recombinant hepatitis B vaccine, 
interferon used for treatment of viral diseases and some forms 
of cancer, and a variety of other things used for heart 
attacks, stroke.
    The story was based on a 1999--now, this is a public story, 
so I'm not asking about any classified information--a 1999 
Cuban defector, Dr. Jose de la Fuente, who formerly directed 
Cuba's Center for Genetic Engineering and Biotechnology. He 
oversaw the work of 350 scientists at what would be their 
major, I gather, research facility in the area of 
biotechnology.
    Are you familiar with this individual?
    Mr. Ford. Yes.
    Senator Dodd. Dr. De la Fuente, a defector, told the Miami 
Herald that he had: ``No reason to believe that Cuba's sale of 
technology to Iran was malicious, although the outcome could 
be.''
    Isn't it virtually impossible to deny a country access to 
dual-use technology in the BW area?
    Mr. Ford. Extremely, extraordinarily difficult.
    Senator Dodd. In other words, are almost all commercial 
technologies in the pharmaceutical area adaptable to BW 
purposes as well?
    Mr. Ford. Yes.
    Senator Dodd. Is Cuba--well, I've asked is it the only 
country. You have answered you don't know that, but you're not 
going to be surprised if--in fact, we'll state as a matter of 
record there are other countries, allies of ours, who do sell 
dual-use technology in the pharmaceutical area to Iran and 
other rogue states.
    Mr. Ford. It certainly wouldn't surprise me. I just don't 
know it for a fact.
    Senator Dodd. What dual-use technology has Cuba sold or 
otherwise made available to rogue states? Which ones? What 
other countries have made--we don't bother with that question. 
Would anything they sell in this area be automatically 
classified as dual-use?
    Mr. Ford. What I can say about this, I do touch on this 
subject briefly in my classified presentation. If you don't 
mind, I'm not trying to avoid the question, but it would really 
be better for me to answer this in the closed session.
    Senator Dodd. Again, I don't want to draw you into policy, 
but it seems to me if in fact what you said is true, and I 
believe it to be the case, it is very difficult in the 
pharmaceutical area, in dual-use technology, to be able to 
characterize it as strictly BW or not BW because of the 
potential use of it, the capability.
    It seems to me if that's the case then it would make more 
sense for the United States to deny Iran, Syria, and other 
rogue states access to vaccine production technology, whether 
it's from Cuba, France, or any other country. That to me ought 
to seem to be where the effort ought to be if in fact they're 
getting it from so many sources. Do you agree with that?
    Mr. Ford. Again, as you suggest, that's--I obviously have a 
personal view and a sense for policy, but that's really not my 
field. Of course, I think that we should try to do what we can 
to ensure that rogue states like Iran don't get nuclear, 
chemical, or biological technologies, dual-use or otherwise, 
not only from Cuba but from any of our friends, allies, other 
rogue states.
    But I admitted up front that that's very, very difficult. 
It's in fact--in measuring things, it's much easier to deal 
with the nuclear problem than it is the biological weapons 
problem because there's a difference in scale, difference in 
evidence, difference in requirements. So that BW is probably 
the most difficult for us to deal with.
    Senator Dodd. Dealing with the Carter visit, were you aware 
that President Carter was going to be making a visit to Cuba?
    Mr. Ford. I was aware that he was going to Cuba. I had read 
it in the newspapers or heard it on TV.
    Senator Dodd. Were you aware about the time that the Bolton 
speech was cleared by your agency, or your department, rather?
    Mr. Ford. Frankly, I didn't know that Secretary Bolton's 
speech was scheduled or when it was going to be.
    Senator Dodd. That didn't raise any concerns in your mind 
that this may have been a speech given in response to the 
upcoming visit of the former President to Cuba?
    Mr. Ford. I didn't make the connection. I could understand 
why others might, but I simply was focused on another problem 
during that period of time and I really didn't pay much 
attention to either the speech or, unfortunately, President 
Carter's trip to Cuba.
    Senator Dodd. Did you participate in President Carter's 
intelligence briefings prior to his recent visit to Cuba?
    Mr. Ford. No, Mr. Chairman, I did not. I understand he 
received one, but it was from CIA or somebody. It wasn't from 
myself or my staff.
    Senator Dodd. So you're not aware whether or not he was 
briefed about BW programs in Cuba?
    Mr. Ford. I don't know.
    Senator Dodd. Is any of our information about Cuba's BW 
capability or its programs based on Cuban scientists who 
actually worked in the programs?
    Mr. Ford. All of our information is indirect.
    Senator Dodd. The answer is no?
    Mr. Ford. No.
    Senator Dodd. There have been a number of defectors who've 
come out of Cuba from the scientific community.
    Mr. Ford. That's correct.
    Senator Dodd. But none of the information on which we base 
this conclusion is drawn from those sources?
    Mr. Ford. Of course, we look at all the information 
available to us--scientists, intelligence officers, emigres of 
various sorts from Cuba. And these people have talked at 
various times and in various levels of detail about a limited 
offensive BW capability. We didn't just pull it out of the air.
    Senator Dodd. But none of them had any direct----
    Mr. Ford. None of them had direct evidence.
    Senator Dodd. Except Dr. De la Fuente.
    Mr. Ford. Again, we're getting to areas where for me to 
explain my reasoning and rationale I really need to talk about 
the whole range of information.
    Senator Dodd. I understand. But my point is he directed the 
biotechnology program in Cuba, oversaw 350 scientists. He's 
asked whether or not there's any information that there was a 
malicious intent behind the export of dual technology to Iran 
and he said none. Now, the capability is there, he quickly 
added. But there's one person who did have a direct knowledge 
because of his role, a defector, and says no.
    But we have no one else from the scientific community who 
will give us direct evidence, direct evidence to contradict his 
statement; is that correct?
    Mr. Ford. Again, let me talk about the whole subject more 
in closed session. But I'm not suggesting that your 
characterization is incorrect or that you are not making a 
valid point.
    Senator Dodd. On the treaty violations--again, I won't get 
into that because that statement you've already said we'll 
bring that up with others along the way. It gets a little 
complicated. There's an Australian group and other things that 
make this a little more difficult.
    Mr. Ford. Thank you, Mr. Chairman.
    Senator Dodd. Yes, I thought you might appreciate that.
    Secretary Powell has stated that--and I'm quoting--``Cuba 
has a biological offensive research capability,'' although the 
Secretary also stated, and I quote him, ``We didn't say that it 
actually had such weapons, but it has the capacity and the 
capability to conduct such research.''
    Under Secretary Bolton and yourself have both stated that 
Cuba has ``limited offensive biological research developmental 
effort.'' I wonder if you could help us understand what 
constitutes capability here. We're getting down to words and I 
don't want to get so bogged down in the minutiae, but this is a 
pretty important conclusion and obviously you're going to hear 
a lot about it, we have heard a lot about it here.
    For example, what kinds of laboratories, reagents, agent 
cultures, equipment, biocontainment facilities, et cetera, must 
a country possess in order to have such a capability, but not 
necessarily a program? How would these facilities differ from 
those needed to support a pharmaceutical R&D company, a 
university medical school specializing in tropical diseases, 
for example?
    Mr. Ford. Cuba has in our judgment the trained personnel, 
medical and scientific, the knowledge as supported by their 
research into various diseases, both human and animal. They 
have the research facilities, including biocontainment 
facilities. They have everything you need to build a offensive 
biological weapon. They don't need anything else.
    The difference between that and a program is an arbitrary 
intelligence community judgment, that to have a program, you 
need to be able to have a factory that tests the weapon, that 
puts the weapon in a bomb or a shell and/or does research and 
development on that sort of weapons program, and has a unit 
within the military specifically designated for a weapons 
capability. That whole process of BW warfare is called a 
program.
    One, we don't see that in Cuba. We don't identify it having 
a program. But it has everything else in order to build the bug 
that could be used against persons, livestock, or crops.
    Senator Dodd. Well, I've got a major production facility in 
my state, Pfizer Corporation in Groton, Connecticut. And 800 
scientists are there, a research facility, a fantastic one. Are 
you suggesting to me that what exists there, because it is a 
great laboratory and research facility and production facility 
as well, that that's a capability? Because they're able to 
produce Viagra, picking a drug out of the air here, that they 
may be--that capability----
    Mr. Ford. As long as it's not personal.
    Senator Dodd. That capability--no one is suggesting, Carl. 
You don't need to defend yourself.
    Mr. Ford. One, I clearly don't think that----
    Senator Dodd. You know what I'm getting at here?
    Mr. Ford. I understand.
    Senator Dodd. What my point is is that capability--that's a 
capability. Does that capability to produce one pharmaceutical 
product, with all the scientists and so forth, is that the 
analogy we're making here? And is there evidence that the Cuban 
pharmaceutical industry, biotechnology industry, is 
aggressively pursuing production of products that are non-BW in 
areas to deal with animal husbandry issues, crop issues, human 
illness? Or is there an absence of that, that would then 
heighten the degree of concern about a capability that doesn't 
seem to be doing anything else? Unlike Pfizer's?
    Mr. Ford. I always suspected that the people in Connecticut 
probably didn't like me very much. But beyond that, I assume 
that--you're right, we're really talking about that there is 
the capability at medical, biological research facilities in 
the United States. They have a capability for BW.
    I would point to the fact that we're not quite sure--in 
fact, as I read the newspapers and talk to my colleagues, we 
all suspect that the anthrax that was used here in the United 
States, even against the Senate, could very well have been 
produced right here in the United States. So clearly that 
capability is there.
    The difference between what goes on here in the United 
States and what we see in Cuba is that they clearly have a 
capability, and we have seen them working with bad things that 
could make biological weapons, and they don't like us. They may 
have good reason for that. That's a different call. But the 
fact is that they are worried about the United States. They're 
afraid that we are going to use a weapon of mass destruction, 
biological, they've argued, or more likely in their minds, 
probably some sort of nuclear weapon, and that that gives them 
cause, that gives them a reason why they might want to use this 
capability to build a weapon.
    Senator Dodd. Do they have any justification for that? Have 
we ever had any plans to use----
    Mr. Ford. I think they--you know, obviously, I see it from 
American eyes. I don't think they have any justification at 
all.
    Senator Dodd. Have we ever had any plans?
    Mr. Ford. I think it's a terrible mistake if that's what 
they in fact believe.
    Senator Dodd. Have we ever had any plans to use biological 
weapons against Cuba?
    Mr. Ford. I personally don't know. I hope to God we didn't. 
But you know, I can't speak for what happened back in the 
fifties and the sixties. I don't know.
    Senator Dodd. Well, the fact is they don't like us. We 
don't like them. That's a major factor in the conclusion?
    Mr. Ford. Certainly in my conclusion that I'm not 
particularly worried about the medical facilities and 
capability for BW in Connecticut or London or even Paris.
    Senator Dodd. Unless there's someone there who doesn't like 
us.
    Mr. Ford. But I am worried about it in Iran and Iraq, North 
Korea, and Cuba. But to say that it wasn't a factor in my 
thinking, that the position between or the feelings between 
Cuba and the United States would be--obviously it is a factor 
in my assessment.
    Senator Dodd. Senator Chafee.
    Senator Chafee. Thank you.
    I would like to just followup on ``they don't like us.'' I 
guess that's the root of my dispute over this whole issue. And 
it's no different from saying that the Russians didn't like us, 
but look at what we have accomplished in detente and 
conciliation. You can say the North Vietnamese didn't like us, 
but look at what's happening between these two countries now. 
The Chinese didn't like us back in the Korean War, but look at 
what is happening.
    Why isn't there more of an effort here with Cuba? Just 90 
miles away, to bridge across and to maybe assume that they do 
like us, instead of assuming they're aggressive. It's no 
different as to whether Canada is capable of having a 
biological weapon. They're our allies. And I do think--maybe 
you can dispute this--that the signals coming from that island 
90 miles south of us are positive, and that things are 
changing.
    Their ally the Soviet Union is now our ally. Visitors are 
pouring in, whether Canadians, Swiss, Swedes, Americans, and 
the olive branch is being extended. Why isn't the rhetoric from 
the State Department reflecting that?
    Mr. Ford. Well, as I suggested earlier, those questions are 
legitimate, important questions, but those should be directed 
at Secretary Powell or others at State Department who are 
responsible for developing our policy on Cuba.
    What I can say is that we in INR are telling the Secretary, 
and we believe, that Cuba has a limited development offensive 
BW effort.
    Senator Dodd. We've been joined by Senator Nelson. I 
apologize, I didn't see him walk into the room. Bill, welcome.
    Senator Nelson. Thank you, Mr. Chairman.
    I'm curious about your statement, BW capability with regard 
to crops. Could you expand on that?
    Mr. Ford. I will try. I would be the first to admit that I 
am not a biotechnical expert. I wouldn't know a biological 
weapon if I stumbled over one. So within those restrictions, I 
will say that as I have been told, that the research 
capabilities of Cuba include work on various biological agents, 
pathogens, that could be effective against both people, 
livestock, and crops.
    I had taken that as a pretty fundamental basis of 
biological weapons, so I didn't question it. I didn't ask them 
which crops. I'm assuming they're talking about those close by, 
that you know well, that both the cattle industry and the 
fruits and vegetables in Florida would be clearly at least on 
my list of things to be worried about.
    Now, I think that I don't want to give you the impression 
that we are suggesting to the Secretary or anybody else that 
there is a person with a satchel on his way to Dade County or 
to Saint Pete with a bag of biological weapons. Indeed, we 
think that if you want to talk about intentions, that it has to 
do with their fear of the United States and wanting to have a 
deterrent, wanting to have something in their capability that 
they could strike back at us.
    I certainly see no indications that there is a first strike 
capability or effort to attack the United States. It's simply 
an effort that would give them a capability if at some point in 
the future they thought it important to attack using a 
biological weapon. I think that would be a huge mistake for any 
country, to attack the United States with such a weapon. But 
that's the future and I can't read all of the--I don't have a 
crystal ball.
    Senator Nelson. So you see their weapons capability as more 
defensive in their planning, as opposed to offensive?
    Mr. Ford. They have an offensive capability, but I think 
that they see, the Cubans see it, as a deterrent, not as 
something that they have decided in a back room in Havana that 
they're going to use against the United States tomorrow, next 
week, next year, 5 years from now.
    Senator Nelson. That being your conclusion--perhaps, Mr. 
Chairman, you might have already asked this. Perhaps in detail 
you went into this or perhaps this is for the closed session, 
about the potential of exporting those particular BW agents to 
other countries. Have you gotten into that?
    Senator Dodd. We talked a little about it. Senator Allen 
has talked a lot about it. We have as well. But it's a big 
subject, so don't hesitate. I'm sure Carl won't mind your 
asking.
    Senator Nelson. Given the nature of your last answer, that 
in your opinion that you seem to be of the opinion that their 
BW elements are more constructed in a defensive nature than 
offensive nature, well, how does that work into whether or not 
they would be exporting? And do we have any evidence of exports 
to other countries?
    Mr. Ford. We are concerned about the pattern of trade 
activities that Cuba has maintained in their biomedical, 
biotechnical use, equipment use. So that many of the things 
that they sell and trade with other countries have a dual-use 
capability. Many or a number of the countries that Cuba deals 
with are considered adversaries or potential adversaries of the 
United States, and obviously we're concerned about that 
technology, whether it's dual-use or not, being transferred to 
those countries.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Dodd. I think it's time to go into closed session. 
Do you have something else, Senator, you want to raise?
    Senator Allen. Yes, if I may, just a few points.
    As far as Cuba, a few questions here, and also Cuba's past 
use, potentially, or just to get your views on the possible 
past use of chemical or biological weapons by Cubans, and get 
clear what former President Jimmy Carter's assertion was, 
whether you agree or disagree with it.
    Back in 1998 columnists Robert Novak and Roland Evans 
revealed that the Soviet Union was, of course, back in 1988, 
still in existence, they were supplying Cuban troops who were 
fighting in Angola. The United States and South Africa were 
supporting Jonas Savimbi, the UNITA group. They cited evidence 
scrupulously documented by the senior United Nations consultant 
on chemical warfare, Dr. Aubin Heyndrickx of Belgium, 
toxicologists certified that residue from chemical weapons, 
including sarin, was found in the areas of recent action. When 
questioned then by Senator Dennis DeConcini about the rumors, 
Dr. Heyndrickx, replied: ``There is no doubt any more that the 
Cubans were using nerve gases against troops of Mr. Jonas 
Savimbi.''
    The columnists also went on and said how Heyndrickx had 
warned the United States that if Soviet Cuban managers in 
Angola used gas in the past, they could in the future.
    More evidence also was in 1998 from South Africa, where 
Wuter Bassin, former head of South Africa's covert chemical 
weapons program, had given a sworn statement implicating Cuba. 
He said South Africa was forced to begin its chemical weapons 
program after Cuba had used chemical warfare on South African 
troops fighting in Angola. South Africa--this is before they 
became a free country for all people, but nevertheless--were 
fighting on the side of the United States with Savimbi, and 
they felt that their troops were defenseless and unprepared for 
it.
    Can you confirm or deny those assertions as far as the 
Cubans' efforts in the Angola war back in the late eighties?
    Mr. Ford. I don't have any personal knowledge of those 
events. It doesn't mean that they are true, false. Don't know. 
If you don't mind, Senator, I will--it's an important enough 
question that I will take it and find out and report back to 
you what the INR, what the intelligence community, thinks about 
those reports.
    I'd point out that--but they are talking about chemical 
weapons, not biological weapons, and our judgments are slightly 
different. Chemical weapons are somewhat easier to deal with in 
terms of knowing whether or not they're there or not. 
Biological weapons are just much more difficult to deal with.
    Senator Dodd. Well, do we have any evidence that there are 
chemical weapons in Cuba?
    Mr. Ford. No.
    Senator Allen. Well, some of the concerns as far as the 
transfers, say, to Iran are chemical and biological weapons. 
Granted, they may be different, obviously, in their properties, 
but many times are associated together for logical reasons. And 
they have--well, we'd like to see what----
    Mr. Ford. Particularly since I'm on an unclassified level, 
before I misspeak let me just make sure and doublecheck both 
your question and my response to Senator Dodd to make sure that 
I'm accurate and complete on their chemical, as well as on what 
happened in Africa and what we think happened in Africa.
    [The information referred to is classified.]

    Mr. Ford. [DELETED].

    Senator Allen. I appreciate that.
    Finally, and since we're unclear whether Under Secretary 
Bolton used the word ``development'' twice in one sentence or 
``developmental,'' let me quote from WashingtonPost.com May 14, 
2002, on President Carter, former President Carter's statements 
in Cuba. This is what it says: ``I asked them''--regarding 
State Department people. ``I asked them specifically, is there 
any evidence that Cuba has been involved in sharing any 
information to any other country on Earth that could be used 
for terrorist purposes,'' Carter said. ``And the answer''--this 
is President Carter's comments: ``And the answer from our 
experts on intelligence was no.''
    Now, is that an accurate statement on the part of former 
President Carter, that our experts on intelligence say no, 
there is--that there is no evidence about the Cubans sharing 
information with any other country on Earth that could be used 
for terrorist purposes?
    Mr. Ford. As I indicated earlier, Senator, I don't have any 
personal knowledge of what CIA or someone else may have briefed 
President Carter on. So I can't speak to that.
    Senator Allen. Well, regardless, let's assume--let's 
stipulate you were not in the room. You did not brief him. He 
was not asked--he did not ask you questions or anyone else.
    Mr. Ford. If he had asked me the question, I would, one, 
make the clear distinction between terrorism and any questions 
he may have about Cuban BW effort, capabilities. There are a 
number of--on terrorism, there are a number of groups and 
individuals that are terrorists that are resident in and/or 
travel frequently to Cuba. That's a fact. They are sort of the 
Who's Who of various terrorist groups in Latin America and also 
other parts of the world. Do I have extensive knowledge that 
the Cuban Government is directly supporting terrorist 
activities against the United States or in other parts of the 
world? I can't go that far.
    Senator Allen. Well, former President Carter said that it 
is no, in fact states that the United States--this was at their 
biotechnology facility--the United States had no proof that 
Cuba shared bioweapons data.
    Mr. Ford. Well, but see, I would make--I would make the 
distinction between the questions about terrorism and the 
questions about BW. My sense is that I am worried, and my 
statement suggests my worry, that Cuba, with what I believe to 
be a limited offensive BW effort, has had biomedical contact 
with a number of countries in the world that worry and bother 
me. And so that the connection with biological weapons with 
Iran and other places is based on simply the fact that they are 
involved in economic, commercial relations with Iran on 
biomedical devices, capabilities, and research.
    So that's why we're worried.
    Senator Allen. Have you read former President Carter's 
statements, to the extent you can believe what you read in 
WashingtonPost.com or elsewhere? I think WashingtonPost.com's 
accurate. I want to say that they do a very good job.
    Senator Dodd. That's your local paper. I'd be careful 
there.
    Senator Allen. Well, WashingtonPost.com is a great Website.
    Mr. Ford. In preparation for this hearing, I did not go 
back and review either a transcript or the press reports of 
President Carter's comments. I recall at the time reading in 
both the Washington Post and the Washington Times----
    Senator Allen. Both fine newspapers in their own respects.
    Mr. Ford [continuing]. That's right--and listening to the 
radio and television remarks he made and the general thrust of 
the issues that were discussed.
    Senator Allen. Since you have your general views of all of 
that, and if you have any recollection, do you think that his 
statements of lack of concern on the part of the United States 
as far as Cuba were an accurate description of our actual 
policy and the actual concerns of our country insofar as Cuba's 
biological weapons capabilities, and also the dissemination or 
proliferation thereof elsewhere to rogue states?
    Mr. Ford. I don't question--at least that sounds, as I 
recall, what President Carter asserted, and I don't question 
that.
    Senator Allen. Right. Was that an accurate description of 
our position and concerns?
    Mr. Ford. INR's position, which is the only one I can talk 
directly to----
    Senator Allen. Right.
    Mr. Ford [continuing]. Is that we clearly--I wouldn't have 
mentioned it to you before in March. I wouldn't be here today 
if I didn't believe that we had good evidence to suggest that 
there was something to be concerned and worried about. Is it 
the No. 1 danger posed to the United States? Do you go home and 
worry about it every night and can't sleep? No, it's not at the 
top of my priority list in terms of the greatest threats posed 
to the United States, but that's my intelligence judgment.
    I've got a number of other things you want to worry about 
that I'd like to add to the list. It's on my list. It's 
something that I think that the committee and certainly my 
bosses in the executive branch need to know about, and I 
certainly don't quarrel with them saying that they are 
concerned about it in their public statements. But that's about 
as best I can do in terms of Carl Ford and INR's view.
    Senator Allen. You've been very diplomatic in many respects 
here and I will just state my impression is that the President, 
former President Carter's, statements are inconsistent with 
your testimony on March 19 before this committee. But I'll not 
make you have to----
    Mr. Ford. He probably would say that, too.
    Senator Allen. OK. Well, good, fine.
    Thank you.
    Senator Dodd. Thank you.
    Senator Allen. No further questions.
    Senator Nelson. Mr. President--``Mr. President.'' Mr. 
Chairman----
    Senator Dodd. That has a nice ring to it.
    Senator Nelson. That does have a nice ring to it, doesn't 
it.
    May I divert here just a little bit because of the 
credentials of our witness. We just passed a resolution 
sponsored by me out of this committee a week and a half ago 
commending those brave soldiers in Cuba who have signed the 
petition on the Varela Project. The question that often comes 
regarding those 11,000 brave souls that put their name on a 
petition to Castro's government is, is the Castro government 
going to clamp down on them? One of the reasons for us passing 
the Senate resolution was to try to draw all the more 
attention, world attention, to their very courageous action.
    Do you have any information with regard to any plans or any 
actions that the Castro government has taken or would be taking 
against those citizens who signed the petition in Cuba?
    Mr. Ford. Senator, I share your concern. We are watching 
closely. At this point I don't know of any evidence that 
suggests that there has actually been a specific case of 
retaliation or punishment or any impact. That doesn't mean 
there hasn't been or that there won't be. I just haven't seen 
it yet.
    Senator Nelson. What is it, as you observe the changing 
conditions internally in Cuba, that would suddenly allow this 
seed to germinate and sprout where people would suddenly stand 
up and defy the Cuban Government by, according to the Cuban 
constitution, coming forth and signing a petition, of which 
10,000 names were required, to put an issue in front of the 
National Assembly? What is changing there that suddenly allowed 
that seed to germinate and sprout?
    Mr. Ford. Well, I suspect that you know more, have 
forgotten more, than I know about Cuba. So I'm not----
    Senator Nelson. I'm interested in your observations from 
your world.
    Mr. Ford. But I don't find that all that surprising. One, 
it isn't the first time that people have taken great risk to 
speak out or make a choice about what they thought was going on 
in Cuba. They've been coming here, risking their lives, for as 
long as I can remember. So that that was always a signal to me. 
When a person will get on a boat that doesn't float and set out 
across from Cuba to the United States, risking their and their 
family's lives, it suggests to me that they really want to get 
here.
    Senator Nelson. I'll tell you what's different about that 
and this, though, is that this, they put their name on the line 
and they're staying in Cuba. In the situations you just 
described, people are trying to flee.
    Mr. Ford. I accept that, Senator. But I would make the 
argument that the courage involved and the process, the thought 
process, is not at all that different, because there's no 
guarantee that you can get out. You might be picked up by Cuban 
police or Cuban Coast Guard and, if caught trying to escape, 
you're going to be punished.
    I think the other part of it, though, is that I think that 
it's very difficult over an extended period of time to keep 
people from expressing their political, social views; and that 
it's not just Cuba. We've seen changes that we never would have 
imagined and the intelligence community didn't pick up on in 
former Soviet Union, now Russia. But we've also seen changes 
throughout Eastern Europe, China, a lot of places that we've 
seen changes.
    So the notion that people in Cuba would be any different or 
be any less willing to take and state their desire for 
democracy and greater freedom doesn't surprise me. But I'm not 
a Cuban expert. There may be a very good reason that an expert 
up here would say: Oh, yeah, I've got this piece of evidence 
that says this is why this is happening now.
    I frankly did not react as it being something new and 
different. I was a little surprised, but pleased, that this 
sort of approach had emerged in Cuba.
    Senator Nelson. Well, I too was surprised, very pleased. If 
you see any evidence either that you can share publicly or 
privately that in fact there is any retribution against these 
11,000-plus courageous souls, I want you to share that with me.
    Mr. Ford. Yes, sir, will do.
    Senator Nelson. Thank you, Mr. Chairman.
    Senator Dodd. Thank you, Senator Nelson.
    Now let me make a couple of closing observations if I can. 
First of all, we appreciate your being here, Mr. Ford. Your 
statement at the outset that obviously you deal with 
intelligence matters, Mr. Bolton deals with policy--I presume 
the two of you have met from time to time with the Secretary 
simultaneously.
    Mr. Ford. That's not--in this case, I have met with the 
Secretary on this issue. I have met with Secretary Bolton on 
this issue, but not together. The only time that Secretary 
Bolton and I were together was we met once briefly with 
Secretary Armitage, Secretary Bolton and myself, a week, 10 
days ago.
    Senator Dodd. Well, the point I make is the one I did at 
the outset, and that is I want to express again my 
disappointment here. I appreciate your being here, but Mr. 
Bolton is the Under Secretary. This is a--it's not about the 
personalities on this committee. It's this committee, the 
Foreign Relations Committee of the U.S. Senate, and when an 
Under Secretary makes a speech to a ``political'' organization 
here in town and then refuses or is told he cannot come to 
testify before a standing committee of the Congress on the 
subject matter of that speech, it is terribly disappointing.
    That's unhealthy in this country. There is a responsibility 
that the executive branch owes to the legislative branch, with 
our oversight responsibilities, to appear before us and to 
respond to questions that are raised. If it was comfortable 
enough for him to submit his remarks to the intelligence group 
department at the State Department and then give a speech that 
received wide publicity, and then not be allowed to come before 
this subcommittee, that is deeply disturbing to me. Beyond the 
specifics here, that is deeply disturbing.
    I understand the Secretary is prepared to testify and, if 
necessary, have Mr. Bolton come up. That's a rather long, 
circuitous route. It would have been just as easy for him to be 
here this morning to go over this, to respond to the questions. 
So I wanted to make that point again to you.
    Second, I think it is--I am sorry my colleague from 
Virginia has left because I wanted to make this statement in 
his presence as well. I happen to believe that most people 
admire immensely what President Carter did by going down to 
Cuba and giving a very blunt and frank talk in the presence of 
Fidel Castro and the Cuban people, given a unique opportunity 
not allowed to any Cuban, by the way, to express their views on 
national television and radio, when he called for democracy in 
that country, when he specifically referred to the Valera group 
that my colleague from Florida has mentioned, and their rights.
    That is the first time that a person of that level and rank 
has gone down and used the opportunity in a public forum that 
he was given to really be of a very honest and frank 
expression, I think, of the views of many Americans. Whatever 
else we may disagree about here, none of us harbor anything but 
a fervent desire and hope that the Cuban people be free, and 
they are not free. They live under a dictator. That's the long 
and the short of it.
    Your characterization I think is accurate in the sense that 
this is a far lower priority for all the obvious reasons we 
don't need to go into, than other places around the world that 
pose a threat to us. And I think Senator Nelson is correct, 
there are some interesting signs here. The question is whether 
or not we're going to be clever enough to pick up on those 
signs, to listen carefully to the dissident community within 
Cuba.
    I have great admiration for those who have fled and placed 
their lives on the line to come to this country. I have even a 
heightened degree of admiration for those who are dissidents 
who decided to stay. I say that with all due respect to those 
who have made the decision to leave. But for those who've 
stayed and done the 20 and 25 and 30 years in prison, we ought 
to listen carefully to their advice and counsel as to how to 
proceed.
    President Carter I think did a wonderful, wonderful job, 
and all Americans, whether you agree with everything he said or 
every comment made, I think he's opened up some new 
opportunities for us here regarding change in Cuba that weren't 
present otherwise.
    And I wasn't going to say this, but since the 
characterization that he may have misspoke--he was given 
information. He specifically asked about whether or not there 
were particular problems in this area. He was told there were 
not. I don't for a second question the veracity of President 
Jimmy Carter, and I don't know many Americans who ever would. 
So when he had a briefing and he was asked about concerns, he 
was told this matter did not come up, and I take him at his 
word, and I believe that most Americans would as well.
    We're grateful for your testimony. And I'd like to spend a 
few minutes with you in closed session to go over some of the 
issues you could not, and rightfully could not, raise in a 
public forum, and I'd invite my colleague Senator Nelson to 
join us for that purpose. The public session of this committee 
will stand adjourned.
    [Whereupon, at 11:42 a.m., the subcommittee was adjourned, 
to reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
